App. 1
No. 87-895

In the Supreme Court
of the United States
OCTOBER TERM, 1987
-----------------------------------------------------------------------

WILLIAM H. HEDLUND, et al.,
Petitioners,
v.
ELSIE VIOLA MILLER, et al.,
Respondents.
-----------------------------------------------------------------------

Petition for Writ of Certiorari
to the Ninth Circuit Court of Appeals
-----------------------------------------------------------------------

DAVE FROHNMAYER
Attorney General of Oregon
WILLIAM F. GARY
Deputy Attorney General
*VIRGINIA L. LINDER
Solicitor General
MICHAEL D. REYNOLDS
Assistant Solicitor General
JEROME LIDZ
Assistant Attorney General
400 Justice Building
Salem, Oregon 97310
Phone: (503) 378-4402
Counsel for Petitioners
*Counsel of Record

App. 2
QUESTION PRESENTED
Does the Sherman Act invalidate state regulations
which require each beer and wine distributor to post
its prices and offer those prices evenhandedly to all retailers for a specified period, but which neither permit
concerted action among distributors nor grant any distributor the “private regulatory power” to set prices for
other distributors or retailers, unless the state actively
supervises each distributor’s pricing decisions?
PARTIES
The parties to the proceeding in the Ninth Circuit
Court of Appeals whose judgment is sought to be reviewed are as follows: William H. Hedland, Sylvia S.
Bedingfield, Reuben A. Worster, Stan Auderkirk and
Jill Thorne, individually in their representative capacities as the Commissioners of the Oregon Liquor Control Commission; C. Dean Smith, individually in his
capacity as Administrator for the Oregon Liquor Control Commission (petitioners herein); Elsie Viola Miller
and Oretta Bernice Lancaster, doing business as the
Junction Cafe and Tavern; Taylors’ Coffee Shop, Inc.,
dba Rennie’s Landing; Wian, Inc., dba Barney’s Cable,
individually and as representatives of others similarly
situated (respondents herein), and Beer and Wine Distributors Association, Inc.; Spear Beverage Co., Inc.;
Coast Distributors, Inc.; and United Beer Distributing
Company; individually and as representatives of others similarly situated.

App. 3
TABLE OF CONTENTS
Page
Question Presented .............................................

i

Parties ..................................................................

ii

Petition for Writ of Certiorari..............................

1

Opinions Below ....................................................

1

Jurisdiction ..........................................................

1

Constitutional Provisions, Statutes and Regulations Involved ...................................................

1

Statement of the Case .........................................

5

Reasons to Grant the Writ ...................................

9

I.

The Ninth Circuit erroneously construed
the Commission’s limited, purely public
regulation as a “hybrid” restraint on competition which per se violated Section 1 of
the Sherman Act ........................................ 10
II. Both the concept of a “hybrid restraint” and
the analysis which follows from characterizing state regulation as a hybrid restraint
need clarification from this Court ............... 20
Conclusion............................................................ 23
Appendix A
Ninth Circuit Court of Appeals Opinion .......... App-1
Appendix B
District Court for the District of Oregon Opinion .................................................................... App-19
Appendix C
Ninth Circuit Court of Appeals Order............ App-35

App. 4
TABLE OF AUTHORITIES
Page
Cases Cited
Battipaglia v. N.Y. State Liquor Authority, 746
F.2d 166 (2d Cir. 1984) ............................................21
California Liquor Dealers v. Midcal Aluminum,
445 U.S. 97 (1980) ........................................... passim
Dr. Miles Medical Co. v. Park & Sons Co., 220
U.S. 373 (1911) ........................................................15
Enrico’s, Inc. v. Rice, 561 F.Supp. 511 (N.D. Cal.
1982) ........................................................................21
Fisher v. City of Berkeley, Cal., 106 S.Ct. 1045
(1986) ............................................................... passim
Intercontinental Packaging Co. v. Novak, 348
N.W.2d 330 (Minn. 1984) ........................................21
Lewis-Westco v. Alcoholic Bev. Cont.App. Bd.,
136 Cal.App.3d 829, 186 Cal.Rptr. 552 (1982) .......21
Miller v. Hedlund, 579 F. Supp. 116 (D. Or. 1984) .........1
Miller v. Hedlund, 813 F.2d 1344 (9th Cir. 1987) ......1,8
11,12
Miller v. OLCO, 42 Or. App. 555, 600 P.2d 954
(1979), review denied 288 Or. 493 (1980).............7,11
Miller v. Oregon Liquor Control Com’n, 688 F.2d
1222 (9th Cir. 1982) ...................................................7
Morgan v. Division of Liquor Control, Etc., 664
F.2d 353 (2d Cir. 1981) ............................................21
Northern Pac. R. Co. v. United States, 356 U.S. 1
(1958) .......................................................................15

App. 5
Parker v. Brown, 317 U.S. 341 (1943) ......................7,18
Rice v. Norman Williams Co., 458 U.S. 654 (1982) .......16
Schwegmann Bros. v. Calvert Distillers Corp.,
341 U.S. 384 (1951) ......................................... passim
Serlin Wine & Spirits Merchants, Inc. v. Healy,
512 F.Supp 936 (D. Conn. 1981) ........................21,22
Southern Motor Carriers v. U.S., 471 U.S. 48
(1985) .......................................................................20
324 Liquor Corp. v. Duffy, 107 S.Ct. 720 (1987) .... passim
Town of Hallie v. Eau Claire, 471 U.S. 34 (1985) ... 18-19,20
Wine and Spirits Specialty, Inc. v. Daniel, 666
S.W.2d 416 (Mo. 1984) .............................................21
Constitutional Provisions
U.S. Const. Art. VI ..................................................... 1-2
Statutory Provisions
15 U.S.C. § 1 (1982) ............................................. passim
15 U.S.C. § 2 (1982) .......................................................1
15 U.S.C. § 15 (1982) .....................................................1
15 U.S.C. § 26 (1982) .....................................................1
28 U.S.C. § 1254(1) (1982) ............................................1
28 U.S.C. § 1331 (1982) .................................................1
50 Stat. 693 .................................................................13
Ariz. Rev. Stat. Ann. § 4-252 .......................................23
Calif. Bus. & Prof. Code § 25000 ................................23
Conn. Gen. Stat. § 30-63 .............................................23

App. 6
Del. Code Ann. tit. 4, § 508 .........................................23
Georgia Comp. R. & Regs. r. 560-2-3-.45 ....................23
Haw. Rev. Stat. § 281-123 ...........................................23
Kan. Stat. Ann. § 41-1101...........................................23
Mass. Gen. L. chapter 138, § 25C ...............................23
Me. Rev. Stat. tit. 28, § 655, tit. 28A, § 1408 ..............23
Mo. Rev. Stat. § 311.332, .334, .336, .338 ...................23
N.M. Stat. Ann. § 60-8A-12 .........................................23
Or. Rev. Stat. § 471.030 (1985) .....................................2
Or. Rev. Stat. § 471.705 (1985) .....................................3
Or. Rev. Stat. § 471.710 (1979 Replacement Part)..........3
Or. Rev. Stat. § 471.710 (1985) .....................................3
Or. Rev. Stat. § 471.715(1) (1985) .................................3
Or. Rev. Stat. § 471.730 (1985) .....................................2
Tenn. Code Ann. § 57-6-104(a) ...................................23
Wash. Admin. Code § 314-20-100 ...............................23
Wash. Admin. Code § 314-20-105 ...............................23
Wash, Admin. Code § 314-24-190 ...............................23
Wash. Admin. Code § 314-24-200 ...............................23
Administrative Regulations
Mich. Admin. Code r. 436.1625, 436.1726 ..................23
N.J. Admin. Code tit. 13, § 2-24.5 ...............................23
Or. Admin. R. 845-06-090 (1987) ..................................3
Or. Admin. R. 845-10-210 (1984) ..................................3

App. 7
Or. Admin. R. 845-10-210(1)(d) (1987) ....................3,16
Or. Admin. R. 845-10-210(2)(d) (1987) .......................16
S.D. Admin. R. 64:75:03:02 .........................................23
Other Authorities
Sup. Ct. R. 20 ................................................................1
Sup. Ct. R. 28 ................................................................1
Sup. Ct. R. 29 ................................................................1
[1] PETITION FOR WRIT OF CERTIORARI
Petitioners, the Administrator and Commissioners of the Oregon Liquor Control Commission of the
State of Oregon, respectfully pray that this Court issue
a writ of certiorari to review the decision of the Ninth
Circuit Court of Appeals in Miller v. Hedlund, 813 F.2d
1344 (9th Cir. 1987).
OPINIONS BELOW
The opinion of the Ninth Circuit Court of Appeals
is reported as Miller v. Hedlund, 813 F.2d 1344 (9th Cir.
1987), and is attached to this petition as Appendix A.
The order and judgment of the district court is reported as Miller v. Hedlund, 579 F. Supp. 116 (D. Or.
1984), and is attached as Appendix B.
JURISDICTION
The decision of the Ninth Circuit Court of Appeals
was dated and filed initially on October 31, 1986. The
decision thereafter was withdrawn and then refiled on
April 6, 1987. By order filed August 27, 1987, the Ninth

App. 8
Circuit denied defendants’ timely petition for rehearing and suggestion for rehearing en banc. A copy of the
order denying the petition for rehearing is attached as
Appendix C. This petition for writ of certiorari is filed
within 90 days following the filing of the order denying
the petition for rehearing, pursuant to Sup. Ct. R. 20,
as time is computed under Sup. Ct. R. 28 and 29. The
district court had jurisdiction in this matter pursuant
to 15 U.S.C. §§ 1, 2, 15 and 26 (1982), and 28 U.S.C.
§ 1331 (1982). Jurisdiction to review the judgment in
this civil case by writ of certiorari is conferred upon
this Court by 28 U.S.C. § 1254(1) (1982).
CONSTITUTIONAL PROVISIONS
STATUTES AND REGULATIONS INVOLVED
The Supremacy Clause, Article VI, of the United
States Constitution, provides:
This Constitution, and the Laws of the
United States which shall be made in Pursuance thereof; and all Treaties made, or which
shall be made, under the [2] Authority of the
United States, shall be the supreme Law of
the Land; and the Judges in every State shall
be bound thereby, any Thing in the Constitution or Laws of any State to the Contrary notwithstanding.
Section 1 of the Sherman Act, 15 U.S.C. § 1 (1982),
provides:
Every contract, combination in the form
of trust or otherwise, or conspiracy, in restraint
of trade or commerce among the several States,

App. 9
or with foreign nations, is declared to be illegal. . . .
Oregon Revised Statutes (Or. Rev. Stat.) § 471.030
(1985) provides in part:
(1) The Liquor Control Act shall be liberally construed so as:
(a) To prevent the recurrence of abuses
associated with saloons or resorts for the consumption of alcoholic beverages.
(b) To eliminate the evils of unlicensed
and unlawful manufacture, selling and disposing of such beverages and to promote temperance in the use and consumption of alcoholic
beverages.
(c) To protect the safety, welfare, health,
peace and morals of the people of the state.
(2) Consistent with subsection (1) of this
section, it is the policy of this state to encourage the development of all Oregon industry.
Or. Rev. Stat. § 471.730 (1985) provides, in part:
The function, duties and powers of the
commission include the following:
(1) To control the manufacture, possession, sale, purchase, transportation, importation
and delivery of alcoholic liquor in accordance
with the provisions of this chapter.
....

App. 10
(5) To adopt such regulations as are necessary and feasible for carrying out the provisions of this chapter [3] and to amend or
repeal such regulations. When such regulations are adopted they shall have the full force
and effect of law.
Oregon Administrative Rules (Or. Admin. R.) 84506-090 (1987) provides:
A licensed retailer of malt beverages or
of wine who is operating under a restaurant
license, package store license, retail malt beverage license or dispenser license may transport,
or have transported by the licensed retailer’s
employe or by a common carrier, from the licensed wholesaler premises to the licensed retailer premises, the malt beverages or wine
sold to the licensed retailer by the licensed
wholesaler. The purchase price of such malt
beverages or wine shall be the price posted
pursuant to OAR 845-10-210.
Or. Admin. R. 845-10-210 (1984) provided:
Price Posting.
(1)

Posting of malt beverage prices:

(a) Licensees of the Commission engaged in the business of soliciting the sale of,
selling or distributing malt beverages for resale within the State of Oregon shall file with
the Commission at its Portland office a written schedule in three copies of prices to be
charged for all such beverages offered for sale
within the state. The prices shall be uniform

App. 11
for the same class trade buyers and shall set
forth:
(A) All brands and types of products offered for sale,
(B) The delivered sale price for each size
container to retail licensees,
(C) Prices or maximum allowances or
discounts to wholesale licensees, and
(D) Any allowance granted for return
containers.
All price postings shall be consistent as
between the various packages and containers
offered for sale. No price postings involving
quantity discounts shall be made.
[4] (b) The Commission may reject any
price posting which is in violation of any of its
rules.
(c) Unless rejected by the Commission,
prices shall be effective on the tenth day following receipt of the posting at the Portland
office of the Commission. . . .
(d) All postings reflecting a price decrease, when accepted, shall remain in effect
for 180 days after the effective date of the
posting. The Commission, at its discretion,
may waive the 180-day period to allow for
price increases based upon conditions which
in its opinion warrant the increases.

App. 12
(2)

Posting of wine prices:

(a) Licensees of the Commission engaged in the business of soliciting sales of,
selling or distributing wine for resale within
the State of Oregon shall file with the Commission at its Portland office a written schedule in two copies of prices to be charged by
such licensee for all wine offered for sale
within the state. The prices shall be uniform
for the same class of trade buyers and shall
set forth:
(A) All brands, classes and kinds of wine
offered for sale, and
(B) The delivered sale price of each size
container to retail licensees.
Prices shall be the same for one container
as for each like container in any quantity comprising a sale, order or delivery. No allowance
shall be made for return of containers and a
wholesale licensee shall not purchase used
containers from a retail licensee.
(b) The Commission may reject any
price posting which is in violation of any of its
rules. . . .
(c) Unless rejected by the Commission,
prices shall be effective on the tenth day following receipt of the posting at the Portland
office of the Commission. . . .
(d) All postings reflecting a price decrease, when accepted, shall remain in effect
for 30 days after the [ 5] effective date of the

App. 13
posting. The Commission, at its discretion,
may waive the 30-day period to allow for price
increases based upon conditions which in its
opinion warrant the increases.
STATEMENT OF THE CASE
The Oregon Liquor Control Act, enacted in 1933,
established a regulatory system for the distribution
of alcoholic beverages among manufacturers, wholesalers and retailers in Oregon. The Act also created
the Oregon Liquor Control Commission (hereinafter,
“OLCC” or “commission”) and granted the commission
extensive powers to adopt regulations to implement
the statutory policies.1
Pursuant to statutory authority, the commission
adopted regulations governing the sale of beer and

1

As presently constituted, the OLCC consists of five commissioners appointed by the Governor, subject to confirmation by
the Senate. Or. Rev. Stat. § 471.705 (1985). One commissioner
is designated to be chosen from the food and alcoholic beverage
industry. Id. The other four commissioners, as well as all persons
holding office or position under the commission, are prohibited
from having “any connection with any person engaged in or
conducting any alcoholic liquor business of any kind” and from
having any pecuniary interest in or receiving any profit from purchases by the commission or persons authorized to manufacture,
purchase or sell any alcoholic liquors. Or. Rev. Stat. § 471.710
(1985). The commissioner appointed from the industry is not eligible to serve as the chairman of the commission. Or. Rev. Stat.
§ 471.715(1) (1985). When this litigation commenced in 1978, the
statutes provided for three commissioners, none of whom was permitted to have ties to the alcoholic beverage industry. Or. Rev.
Stat., § 471.710 (1979 Replacement Part).

App. 14
wine by distributors to retailers.2 These regulations,
inter alia,
1) require distributors to post their prices with
the commission ten days before their effective date;
2) require that price decreases which they post
remain in effect for 180 days for malt beverages3 and
30 days for wine [6] (the “post-off ” rules);
3) require that the posted price be the purchase
price to the retailer, regardless of the distributor’s actual delivery costs (the “delivered price” rules); and
4) prohibit distributors from giving retailers discounts from the posted price based on the quantity of
beer or wine sold to retailers.
Under these regulations, every distributor unilaterally sets its own prices, posts those prices and offers
them uniformly to its customers for the period specified in the rules, without quantity or delivery-related
discounts. No distributor has the power to set prices
for any other distributor or for any retailer.
The uniform price regulations are designed to
prevent “tied house” arrangements prevalent in earlier times, in which distributors controlled retail
2

In Oregon, packaged hard liquor is sold exclusively through
state-owned liquor stores, whereas beer and wine are sold by private retailers.
3
The current rules require malt beverage prices to remain
in effect for only 90 days and provide that the commission may
waive the 90-day period under specified conditions. Or. Admin. R.
845-10-210(1)(d) (1987).

App. 15
establishments through discriminatory pricing practices and left most retailers at the mercy of distributors
who discounted prices to a few favored retailer-customers.
The post-off rule prevents a distributor from posting
a low price one day for a favored customer and then
immediately restoring the higher price for other customers. Public price posting allows distributors and
retailers to monitor and report to the commission
any instances of noncompliance with the regulatory
scheme.
In 1978, several retailers of beer and wine, respondents in this Court, filed suit in the United States
District Court for the District of Oregon against the
commission and several wholesaler-distributors. The
retailers challenged the four regulatory provisions described above on the ground that the regulations had
the effect of stabilizing beer and wine prices in violation of the Sherman Act, 15 U.S.C. §§ 1, et seq.4 The [7]
retailers sought declaratory and injunctive relief to
prevent the commission from enforcing the challenged
regulations.
In 1979, the district court stayed the proceedings
to allow the Oregon courts to review the validity of the
challenged regulations under the commission’s enabling legislation. The Oregon Court of Appeals held the
regulations to be valid and reasonably designed to

4

The retailers subsequently dropped their challenge to the
prohibition of quantity discounts, and the Ninth Circuit did not
rule on it.

App. 16
advance statutory policy. Miller v. OLCC, 42 Or. App.
555, 600 P.2d 954 (1979), review denied 288 Or. 493
(1980).
Thereafter, the district court dismissed the retailers’ federal suit on the ground that Oregon’s involvement in the regulation and control of the liquor
industry was sufficient to establish its immunity from
federal antitrust law under the doctrine of state action
immunity, first articulated by this Court in Parker v.
Brown, 317 U.S. 341 (1943). Because the immunity was
dispositive, the district court did not consider whether
the regulations violated the Sherman Act or whether
the Twenty-first Amendment constituted a defense. On
appeal, the Ninth Circuit reversed the dismissal and
remanded for further proceedings. Miller v. Oregon
Liquor Control Com’n, 688 F.2d 1222 (9th Cir. 1982).
The Ninth Circuit held that Oregon did not “actively
supervise” its regulatory policy and therefore was not
entitled to immunity under Parker v. Brown. It expressed no opinion on the two issues which the district
court had not reached.
On remand, the parties filed cross motions for
summary judgment. The commissioners contended that
the regulations did not violate the Sherman Act because they neither authorized nor required any concerted activity, and that neither the [8] commissioners
nor the wholesaler defendants had engaged in any
combination, conspiracy or agreement in restraint of
trade. They also renewed arguments based on state action immunity and the Twenty-first Amendment.

App. 17
The district court granted defendants’ motion. The
court found no concerted action as to the regulations
requiring wholesalers to post their prices and adhere
to them for certain time periods. Because compliance
with the regulations entails only unilateral action by
the distributors, the court concluded that the regulations did not violate the Sherman Act. The court found
a conflict with the Sherman Act as to the delivered
price regulations. Nonetheless, it relied on intervening
changes in Oregon law to conclude that the regulations
were protected by state action immunity. The court
found no concerted activity on the part of the distributors and, accordingly, granted judgment in their favor
as well.
The retailers appealed to the Ninth Circuit, which
reversed and remanded. Miller v. Hedlund, 813 F.2d
1344 (9th Cir. 1987). The Ninth Circuit concluded that
the challenged regulations effected a per se violation
of the Sherman Act, despite the absence of concerted
activity among the distributors in their unilateral compliance with the commission’s regulations. The absence of concerted activity, however, led the court to
affirm the district court’s judgment in favor of the distributors.
After concluding that the commission’s regulations violated the Sherman Act, the court then decided
that Oregon’s involvement in the regulatory scheme
was not sufficient for the state to invoke state action
immunity. Because the court viewed Oregon’s regulations as a “hybrid” restraint, it applied the two-pronged
test of California Liquor Dealers v. Midcal Aluminum,

App. 18
445 U.S. 97 (1980), conditioning immunity on a clearly
articulated and affirmatively expressed state policy
and the state’s active supervision of the policy. Without
[9] reaching the first prong of the Midcal test, the court
concluded that the state clearly failed the second prong
because the state does not actively supervise distributors’ individually set prices. The Court remanded the
case to the district court for consideration of the
Twenty-first Amendment issue.
The Ninth Circuit withdrew its opinion pending
this Court’s decision in 324 Liquor Corp. v. Duffy, 107
S.Ct. 720 (1987). After that case was decided, the Ninth
Circuit concluded that 324 Liquor Corp. confirmed its
reasoning in Miller and it, therefore, reissued its opinion. 813 F.2d 1344. The OLCC commissioners now petition this Court for a writ of certiorari.
REASONS TO GRANT THE WRIT
The Ninth Circuit erroneously concluded in this
case that a state scheme regulating the manner in
which beer and wine distributors set prices they
charge to retailers is invalid under the Sherman Act,
even though the regulations authorize no concerted
activity and grant no private regulatory power. The
Ninth Circuit’s decision conflicts with decisions of
other circuit and state courts which have upheld similar price regulation schemes against attack under
the Sherman Act. Because many states have regulations similar to those at issue in this case, the Ninth
Circuit’s decision leaves those states in doubt as to

App. 19
whether their regulatory schemes withstand Sherman
Act scrutiny.
In reaching its conclusion, the Ninth Circuit erroneously identified the regulations at issue in this case
as “hybrid” restraints on competition. The court went
astray partly because it lacked the guidance which
would enable it to distinguish between hybrid and
purely public restraints. While antitrust decisions from
this Court are legion, the cases discussing the concept
of hybrid restraints—how they are identified and what
analysis applies to them—can be counted on one hand.
The ability to distinguish between hybrid and purely
public restraints, how[10]ever, is critical. To establish
the requisite “state action” necessary to give a hybrid
regulatory scheme Sherman Act immunity, states must
actively supervise the private, regulatory conduct that
the scheme authorizes. On the other hand, states need
not actively supervise private conduct authorized in a
purely public scheme, because the only restraints on
competition are those directly mandated by state law.
The Oregon scheme is purely public because it confers
no private regulatory power; hence, there is no conduct
which the state must supervise.
Hybrid regulation, with its attendant active state
supervision components, is expensive and time consuming to administer. States such as Oregon, which
desire to regulate only limited aspects of the marketplace, need to know the difference between hybrid regulation and purely public regulation so that they can
tailor their regulations, where possible, to avoid resource-draining “hybrid” regulatory schemes. Only this

App. 20
Court can provide the necessary guidance. Because
this Court’s resolution of the issue presented in this
case will resolve a split in the circuits and have wideranging impact in an important and emerging area of
antitrust law, the Court should grant this petition for
writ of certiorari.
I.

The Ninth Circuit erroneously construed
the commission’s limited, purely public regulation as a “hybrid” restraint on competition which per se violated section 1 of the
Sherman Act

The Ninth Circuit erred in concluding that Oregon’s regulatory scheme is a “hybrid” restraint on
competition forbidden by the Sherman Act. Oregon’s
regulations neither require nor authorize private
parties to engage in concerted activity to restrain
competition, and do not confer on private parties
any regulatory authority. Each distributor acts independently in posting its own beer and wine prices, and
no other distributor is required to read or follow any
other distributor’s [11] prices. The regulations mandate that distributors adhere to their posted prices for
a set period, and that the posted prices be the delivered
prices regardless of actual delivery costs. The posted
prices do not control the prices retailers may charge,
but do prevent distributors from giving preferential
treatment (e.g., lower prices) to some retailers and
not others.5

5

In upholding the commission’s regulations against a challenge that the regulations exceed the commission’s statutory

App. 21
The Ninth Circuit rejected the state’s argument
that the absence of concerted activity among distributors precludes a finding that the regulations mandating this conduct violate the Sherman Act. The
court also rejected the state’s argument that the regulations conferred no private regulatory power but
were a unilateral restraint imposed by government, immune from invalidation under the Sherman
Act.
The court first noted that “[a]n agreement to adhere to previously announced prices and terms of sale
is unlawful per se under the Sherman Act.” 813 F.2d at
1349. The court then observed that because Oregon’s
regulatory scheme
facilitate[s] the exchange of price information
and require[s] adherence to the publicly
posted prices . . . the state compels activity
that would otherwise be a per se violation of
the Sherman Act. It is the presence of state
compulsion that requires a more refined analysis than the one presented by the appellees.
Simply ending the analysis because of the
lack of concerted activity among the wholesalers fails to take into account the presence

authority, the Oregon Court of Appeals noted that the regulations
advanced both statutory and constitutional objectives. Principal
among those objectives were prohibiting financial assistance to
retailers, separating possible wholesale and retail financial connections and ensuring that beer and wine prices would be the
same for all retailers. Miller v. OLCC, 42 Or App at 561-62, 600
P2d at 957-58.

App. 22
and effect of the state’s involvement in the
matter.
Id.
After discussing this Court’s decisions in Fisher v.
City of Berkeley, Cal., 106 S.Ct. 1045 (1986), Schwegmann Bros. v. [12] Calvert Distillers Corp., 341 U.S. 384
(1951), and California Liquor Dealers v. Midcal Aluminum, 445 U.S. 97 (1980), the court compared this case
to Schwegmann and Midcal and concluded that Oregon’s regulations were a “hybrid” restraint that violated the Sherman Act:
First, Schwegmann demonstrates that a showing of concerted activity among the Oregon
wholesalers is not necessary to establish an
antitrust violation. The mere fact that each
wholesaler complies unilaterally with the regulations does not save an impermissible pricing scheme from an antitrust challenge. In
Schwegmann, non-contracting retailers were
compelled to comply unilaterally with a stateauthorized pricing scheme, but the absence of
concerted activity among the retailers was not
a bar to a finding of a Sherman Act violation.
Second, Schwegmann and Midcal show that
Oregon’s actions are not unilateral. The regulations constitute a “hybrid” restraint because, as in those two cases, Oregon allows
private parties to set the prices and does not
review the reasonableness of those prices. It
follows that this case is unlike the purely public restraint of Berkeley’s regulatory scheme

App. 23
which removed the power to set rents from the
landlords.
813 F.2d at 1350-51.
The Ninth Circuit erroneously relied on Schwegmann and Midcal to decide the instant case. As is discussed below, Schwegmann and Midcal did not require
concerted activity because the conduct which the schemes
in those cases authorized—resale price maintenance—
constitutes a per se Sherman Act violation. Midcal, 445
U.S. at 102. In contrast, under Oregon’s scheme, the required private conduct does not per se violate the Act,
and, indeed, the Ninth Circuit dismissed the Sherman
Act claim against the private distributors. The Ninth
Circuit, thus, was wrong in concluding that Oregon’s
regulations did not have to authorize concerted activity to run afoul of the Sherman Act.
[13] As is also discussed below, Schwegmann and
Midcal were hybrid restraint cases because they conferred regulatory power on private individuals to restrain competition in a manner that violated the
Sherman Act. Under Oregon’s scheme, private distributors are granted no private, regulatory power because
their conduct regulates no one else’s behavior. The
Ninth Circuit erred in further concluding that Oregon’s regulatory scheme is a hybrid restraint on competition which is immune from the Sherman Act only
if the state actively supervises private distributors’
prices.

App. 24
A. The Ninth Circuit erred in concluding
that Oregon’s regulations need not authorize concerted activity among distributors for the regulations to violate
the Sherman Act.
The Ninth Circuit decided that because “concerted
activity” was not present in either Schwegmann or
Midcal, concerted activity by distributors in setting
and adhering to their prices was not required in order
for the Sherman Act to preempt Oregon’s regulatory
scheme. Schwegmann and Midcal are not controlling,
however, because the rationale for dispensing with actual, concerted activity in those cases does not exist in
the present case.
When this Court decided Schwegmann, the MillerTydings Amendment to the Sherman Act, 50 Stat. 693,
authorized retail price fixing between consenting distributors and retailers, conduct which, but for the
amendment, would constitute a per se violation of the
Sherman Act. 341 U.S. at 386. The Miller-Tydings
Amendment thus permitted distributors to restrain
the market to the extent their market strength or
position would enable them to co-opt retailers into
agreeing to adhere to the distributors’ retail prices.
Louisiana, however, attempted to bind non-consenting
retailers to retail price schedules set forth in distributors’ agreements with other retailers. Louisiana law
further permitted distributors [14] to enforce their
price schedules against non-consenting retailers. This
Court concluded that Louisiana, by permitting distributors to restrain the market in a way that their own

App. 25
market strength or position might not permit, had exceeded the scope of the exemption which the Miller
Tydings Amendment had intended.
And when we read what the sponsors wrote
and said about the amendment, we cannot
find that the distributors were to have the
right to use not only a contract to fix retail
prices but a club as well.
Id. at 395 (emphasis in original). Thus, without the
shield of the Miller-Tydings Amendment, Louisiana’s
law authorized conduct which constituted a per se Sherman Act violation.6
In Midcal, California’s statutory scheme similarly
involved mandatory resale price maintenance. The
scheme required wine producers to file either fair trade
contracts or price schedules with the state, and required wine wholesalers to sell wine at the prices fixed
in the contracts or price schedules. This Court noted
that this regulatory scheme authorized resale price
maintenance, a result which was per se in violation of
the Sherman Act since repeal of the Miller-Tydings Act
in 1975. 445 U.S. at 102. Because the scheme gave wine
producers the power to dictate the prices that wholesalers could charge,

6

The Ninth Circuit probably is wrong that Schwegmann did
not involve concerted activity. Indeed, under Louisiana law, before retailers who had not signed a resale price agreement could
be bound to sell at the distributor’s set retail price, that price had
to be established in an agreement between the distributor and at
least one retailer. 341 U.S. at 387.

App. 26
such vertical control destroys horizontal competition [among wholesalers as effectively as
if wholesalers “formed a combination and endeavored to establish the same restrictions. by
agreement with each other.”
[15] Id. at 103 (quoting from Justice Hughes’ opinion
in Dr. Miles Medical Co. v. Park & Sons Co., 220 U.S.
373, 408 (1911)).
Concededly, the decisions in both Schwegmann
and Mical could have been clearer as to why the state
regulatory schemes involved in those cases satisfied
the “contract, combination . . . or conspiracy” requirement of section 1 of the Sherman Act. The scheme in
Midcal did not authorize wine producers to agree either among themselves or with their wholesalers that
wholesalers would adhere to the producers’ specified
resale prices. But because the statutory schemes authorized wine producers in Midcal and distributors in
Schwegmann to restrain competition in a way that
they could otherwise achieve only by “contract, combination . . . or conspiracy,” the court apparently decided
the concerted activity requirement of section 1 of the
Sherman Act had been met. These cases, then, appear
to hold that even without actual concerted activity, the
Sherman Act preempts a regulatory scheme that authorizes conduct such as resale price maintenance, because the conduct has such a “pernicious effect on
competition and lack[s]. any redeeming virtue” (see

App. 27
Northern Pac. R. Co. v. United States, 356 U.S. 1, 4-5
(1958)), that it per se violates the Act.7
In terms of its anti-competitive effect, the conduct
mandated by the commission’s regulations in the present case is not in the same class as the conduct in
Midcal and Schwegmann, First, the distributors’ conduct, absent state compul[16]sion, would not alone violate the Sherman Act. A distributor could lawfully
decide to announce its prices and adhere to those
prices for a given period. Setting prices violates the
Sherman Act only if a private individual sets someone
else’s prices; setting one’s own prices does not violate
the Act. Yet, that is all that occurs under Oregon’s regulatory scheme.
Second, the commission’s regulations do not authorize, let alone mandate, resale price maintenance or
any other conduct that per se would violate the Sherman Act. The prices posted by distributors do not prevent beer and wine retailers from charging any price
they may deem appropriate, whether above or below the
posted wholesale prices. Thus, the posting requirement
7

This Court’s recent decision in 324 Liquor Corp. v. Duffy,
107 S.Ct. 720 (1987) is to the same effect. The Ninth Circuit said
324 Liquor Corp. “confirms the reasoning and conclusions set
forth in the opinion.” 813 F2d at 1345. Like the statutes in Midcal
and Schwegmann, New York’s liquor law authorized distributors
to set minimum prices at which liquor would be sold at retail. This
authority was conferred as a result of a scheme which required
retailers to sell liquor at no less than 112 percent of the distributor’s posted bottle price. This Court concluded that the analysis
in Midcal provided the “framework” for resolving the issue in the
case. 107 S.Ct. at 724.

App. 28
permits intra-brand competition among retailers and,
unlike the Midcal and Schwegmann schemes, it also
permits inter-brand competition. Moreover, distributors of different brands freely may adjust their prices
upward or downward after the lapse of 30 days (wine)
or 90 days (beer) in response to prices posted by distributors of competing brands.8 At most, Oregon’s statutory scheme may have the effect of producing less
vigorous inter-brand competition than might exist in
the absence of the 30- and 90-day posting periods. But
the fact that a state regulation might have some anticompetitive effect is not a basis for its invalidation under the Sherman Act. Rice v. Norman Williams Co., 458
U.S. 654, 659 (1982).
In determining that Oregon’s regulations satisfied
the “contract, combination . . . or conspiracy” requirement because they require distributors to post prices
and adhere to [17] them, the Ninth Circuit ignored this
Court’s teachings in Fisher v. City of Berkeley, Cal., and
misconstrued the effect of Oregon’s regulations under
the Sherman Act. In Fisher, this Court held that a city
ordinance freezing rents and granting a governmental
body the authority to allow rental adjustments as
8

Restraint in inter-brand competition is further attenuated
because only price decreases are subject to the 30-day and 90-day
posting requirements. A distributor who posts a price increase is
free at any time to respond to the competition by further increasing or decreasing its price. Moreover, a distributor who posts a
price decrease will not be required to adhere to that price for the
30-day or 90-day period if it can convince the commission that circumstances warrant lifting the requirement. See Or. Admin. R.
845-10-210(1)(d) and (2)(d) (1987).

App. 29
conditions may warrant, constituted “purely public” or
“unilateral” government regulation exempt from the
Sherman Act. 106 S.Ct. at 1051. This Court stressed
that a landlord’s (or distributor’s) decision to adhere to
its announced price for a set period does not amount to
a contract, combination or conspiracy to restrain competition just because the state mandates the decision.
A restraint imposed unilaterally by government does not become concerted action within
the meaning of the statute simply because it
has a coercive effect upon parties who must
obey the law. The ordinary relationship between the government and those who must
obey its regulatory commands whether they
wish to or not is not enough to establish a conspiracy. Similarly, the mere fact that all competing property owners must comply with
the same provisions of the Ordinance is not
enough to establish a conspiracy among landlords.
Id. at 1049-50. Just as the absence of actual, concerted
activity by landlords to fix rental ceilings required the
court to find that the City of Berkeley’s regulations
freezing rent levels did not violate the Sherman Act, so
too, the absence of actual, concerted activity by beer
and wine distributors should preclude a conclusion
that OLCC’s price posting regulations violate the Act.
The Ninth Circuit concluded that Fisher does not
control the present case because in Fisher the regulatory scheme removed the landlord’s power to set rents.
But this is a distinction of degree only that should not

App. 30
matter in the ultimate analysis. To a degree, the commission’s regulations also divest the distributors of
their ability to set prices by mandat[18]ing that once
prices are set they must be adhered to for a given time.
However, the regulations also provide that the commission may permit posted prices to be adjusted upward
if conditions warrant the increase. See note 8, supra.
That beer and wine distributors, at the end of the
posted period, are free to adjust their prices up or down
does not prevent the regulations from being “purely
public” or “unilateral” under the Fisher analysis. If the
City of Berkeley had imposed less ambitious rent stabilization measures that simply required landlords to
adhere to rental prices for a period of six months or one
year, after which they could adjust their rental prices
up or down as they deemed appropriate, it is inconceivable that this Court would hold the city’s failure to set
the rental prices at the end of the period subjected the
regulations to Sherman Act scrutiny.
The Ninth Circuit was wrong in concluding that
concerted activity by distributors was not necessary to
find that the Sherman Act preempted Oregon’s regulations.
B. To the extent Oregon’s regulations may
authorize conduct that per se violates
the Sherman Act, the regulations are
pure “state action” and confer no private
regulatory authority.
Even assuming Oregon’s regulations fulfilled the
concerted activity requirement, as they did in the

App. 31
resale price fixing cases discussed above, that fact is
not fatal. Where, as here, the state regulations mandate price posting and adherence to those prices, and
set the period for which prices must remain in effect,
the regulations are not invalid. It is just this kind of
state action that the Court held in Parker v. Brown to
be immune from challenge under the Act. As the Court
in Parker stated, “The Sherman Act makes no mention
of the state as such, and gives no hint that it was intended to restrain state action or official action directed by a state.” 317 U.S. at 351. See also Town of
Hallie v. Eau Claire, 471 U.S. 34 [19] (1985); Fisher v.
City of Berkeley, Cal., 106 S.Ct. at 1051-52 (Powell, J.,
concurring). Precisely because the state regulations require price posting, specify how long distributors must
adhere to their prices and grant private parties no discretion or “regulatory power” in this regard, the regulations constitute pure “state” action, immune from the
Sherman Act, and not “hybrid” state action for which
immunity can only be determined after applying the
two-pronged Midcal analysis.
Hybrid restraints exist when state regulations
confer on private entities a degree of private regulatory
power. Fisher v. City of Berkeley, Cal., 106 S.Ct. at 1050.
Midcal requires the state actively to supervise the private regulatory power to ensure that the private decisions made pursuant to that power advance state
policy, not the private actor’s own interests. Town of
Hallie, 471 U.S. at 47. In Schwegmann, Midcal and 324
Liquor Corp., because the state allowed private parties
to set the resale prices, the state was required actively

App. 32
to supervise those prices to ensure that they were consistent with the state’s articulated resale price maintenance policy.
In Oregon’s regulatory scheme, unlike those considered in Schwegmann, Midcal and 324 Liquor Corp.,
the predicate for active state supervision—conferrence
of private, regulatory power—is absent. The scheme
does not authorize distributors to agree among themselves to post their prices and adhere to those prices
for a period they agree upon. Posting prices and the
period for adherence to those prices are mandated by
the regulatory scheme itself. The regulations confer
no private power, because even without state involvement, distributors may establish their own prices.
Moreover, because setting once’s own prices regulates
no one else’s conduct, no “regulatory” power is conferred.
Because Oregon’s scheme confers no private, regulatory power, Oregon’s regulatory scheme is not “hybrid.” No requirement or reason exists for the state to
supervise dis[20]tributors’ prices. Fisher, not Midcal,
should control. This Court should reverse the Ninth
Circuit’s decision that Oregon’s regulatory scheme is a
“hybrid” restraint which survives the Sherman Act
only if the state actively supervises distributors’ own
prices.

App. 33
II.

Both the concept of a “hybrid restraint” and
the analysis which follows from characterizing state regulation as a hybrid restraint
need clarification from this Court.

In a series of cases decided over the past twelve
years, this Court has developed a framework for determining the types of state regulation and regulated activities which are not preempted by or are immune
under the Sherman Act. The focus of the inquiry has
been to ascertain the degree to which the challenged
conduct represents the policy of the state acting in its
sovereign capacity, as opposed to private conduct motivated by private interests. To refine that inquiry, the
Court recently has developed a modified analysis for
“hybrid restraints” on competition, which require closer
scrutiny than purely public ones. See 324 Liquor Corp.
v. Duffy; Fisher v. City of Berkeley, Cal.; and Rice v. Norman Williams Co. (Stevens, J., concurring in the judgment). Yet the precise nature of hybrid restraints—as
well as the analysis that follows from that characterization—remains unclear.
To date, the Court has analyzed as a hybrid restraint only state regulation which confers regulatory
power on private parties. See, e.g., California Liquor
Dealers v. Midcal Aluminum; 324 Liquor Corp v. Duffy;
Southern Motor Carriers v. U.S., 471 U.S. 48 (1985). The
court of appeals treats Oregon’s regulatory scheme as
a hybrid restraint, even though the scheme confers no
private regulatory power and even though the court
agreed that the private defendants had not themselves
violated the Sherman Act. The Ninth Circuit fails to

App. 34
distinguish between state action which merely requires pri[21]vate parties to comply with the state’s
market regulations and that which grants them power
to regulate other private parties. As a result, the court
upsets the delicate balance between federal supremacy
and state sovereignty which lies at the heart of our federal system. The Ninth Circuit’s approach illustrates
the need for this Court to clarify the “hybrid restraint”
aspect of the preemption and state action immunity
doctrines.
The Ninth Circuit’s decision also is flatly inconsistent with decisions of other federal courts of appeals, federal district courts and state supreme courts
rejecting antitrust challenges to state regulations requiring posting of wholesale prices and adherence to
those prices for a specified time.9 The Second Circuit
sustained such regulations in New York and Connecticut respectively in Battipaglia v. N.Y. State Liquor
Authority, 745 F.2d 166 (2d Cir. 1984) and Morgan v.
Division of Liquor Control, Etc., 664 F.2d 353 (2d Cir.
1981), affirming Serlin Wine & Spirits Merchants, Inc.
v. Healy, 512 F.Supp 936 (D. Conn. 1981). Substantially
similar price posting and price adherence regulations
survived antitrust challenges in Enrico’s, Inc. v. Rice,
551 F.Supp. 511 (N.D. Cal. 1982), Intercontinental
Packaging Co. v. Novak, 348 N.W.2d 330 (Minn. 1984),
and Wine and Spirits Specialty, Inc. v. Daniel, 666
S.W.2d 416 (Mo. 1984). Each of these decisions reviews
9

Miller is consistent, however, with the decision in LewisWestco v. Alcoholic Bev. Cont.App. Bd., 136 Cal.App.3d 829, 186
Cal.Rptr. 552 (1982), cert. denied, 464 U.S. 863 (1983).

App. 35
this Court’s Midcal opinion in detail and distinguishes
the price-posting and price adherence regulations from
the regulatory scheme invalidated in Midcal. Nothing
in the courts’ analyses suggests that this Court’s most
recent decision in 324 Liquor Corp. would alter their
decisions.10
[22] As a matter of policy, a state’s interest in regulating an industry or profession may justify regulation which ranges from minimum oversight designed
to punish or prevent specific types of abuses to close
scrutiny of every aspect of the regulated industry or
profession. The Ninth Circuit’s decision unnecessarily
constrains the state’s latitude to fashion its policy. The
decision requires a state which imposes limited constraints on price competition to assume the burden of
overseeing competitive pricing decisions made within
the state’s regulatory framework, even where the regulation confers no private, regulatory power and authorizes no private, anti-competitive conduct.
Oregon has neither reason nor resources to review
the reasonableness of distributors’ prices, as the Ninth
Circuit would require. Oregon has set a few, relatively
unrestrictive boundaries on price competition; within
those boundaries, it does nothing to alter the balance
of competitive forces. If a state which seeks to impose
minimal restraints must necessarily occupy the entire
field, “nothing short of a complete monopolization of
the industry by the State could escape Sherman Act
10

See 324 Liquor Corp., supra, 107 S.Ct. at 725, n.6, distinguishing Morgan v. Division of Liquor Control, supra.

App. 36
liability.” Serlin Wine & Spirit Merchants, Inc. v. Healy,
512 F.Supp. at 939. Nothing in this Court’s decisions
supports the proposition that a state which regulates
some aspects of the marketplace violates the Sherman
Act unless it assumes full control of the marketplace.
Several states’ price posting regulations are in
jeopardy under the Ninth Circuit’s analysis. Nearly
every state imposes extensive regulation on the sale of
alcoholic beverages. While the specifics of the regulatory schemes vary considerably from one state to another, the price posting features of Oregon’s regulation
are a common ingredient of many state regulations.11
Given the Ninth Circuit’s decision in the [23] present
case, these states are left in a quandary as to whether
their price posting regulations are a permissible means
of regulating the liquor industry. This Court’s guidance
in distinguishing between purely public and hybrid
regulatory schemes is critical, not only for the benefit
of states which actively regulate the liquor industry,
but also for all state and governmental units which

11

Twenty-three states require price posting for distilled spirits, beer and wine, or at least one of the three. See, e.g., Ariz. Rev.
Stat. Ann. § 4-252; Calif. Bus. & Prof. Code § 25000; Conn. Gen.
Stat. § 30-63; Del. Code Ann. tit. 4, § 508; Georgia Comp. R. &
Regs. r. 560-2-3-.45; Haw. Rev. Stat. § 281-123; Kan. Stat. Ann.
§ 41-1101; Me. Rev. Stat. tit. 28 § 655, tit. 28A, § 1408; Mass. Gen.
L. ch. 138, § 25C; Mich. Admin. Code r. 436.1625, 436.1726; Mo.
Rev. Stat. §§ 311.332, .334, .336, .338; N.J. Admin. Code tit. 13,
§ 2-24.5; N.M. Stat. Ann. § 60-8A-12; S.D. Admin. R. 64:75:03:02;
Tenn. Code Ann. § 57-6-104(a); Wash. Admin. Code §§ 314-20100, 314-20-105, 314-24-190, 314-24-200.

App. 37
engage in limited regulation of other areas of the private marketplace.
CONCLUSION
For the reasons given above, the Court should issue a writ of certiorari to review the judgment and
opinion of the United States Court of Appeals for the
Ninth Circuit.
Respectfully submitted,
DAVE FROHNMAYER
Attorney General of Oregon
WILLIAM F. GARY
Deputy Attorney General
VIRGINIA L. LINDER
Solicitor General
MICHAEL D. REYNOLDS
Assistant Solicitor General
JEROME LIDZ
Assistant Attorney General
Counsel for Petitioners

App. 38
UNITED STATES REPORTS
VOLUME 484
-----------------------------------------------------------------------

CASES ADJUDGED
IN

THE SUPREME COURT
AT

OCTOBER TERM, 1987
BEGINNING OF TERM
OCTOBER 5, 1987, THROUGH FEBRUARY 23, 1988
-----------------------------------------------------------------------

FRANK D. WAGNER
REPORTER OF DECISIONS

-----------------------------------------------------------------------

ORDERS FOR OCTOBER 5, 1987, THROUGH
FEBRUARY 22, 1988
-----------------------------------------------------------------------

OCTOBER 5, 1987
Appeals Dismissed
No. 86-1242. CITY OF AKRON ET AL. v. OHIO MANUFACTURERS’ ASSN. ET AL. Appeal from C. A. 6th Cir. dismissed for want of jurisdiction. Treating the papers
whereon the appeal was taken as a petition for writ of
certiorari, certiorari denied. Reported below: 801 F. 2d
824.

App. 39
No. 86-1656. UTAH POWER & LIGHT CO. v. IDAHO
PUBLIC UTILITIES COMMISSION ET AL. Appeal from Sup.
Ct. Idaho dismissed for want of jurisdiction. Treating
the papers whereon the appeal was taken as a petition
for writ of certiorari, certiorari denied. Reported below:
112 Idaho 10, 730 P. 2d 930.
No. 86-1850. ANDERSON v. FROHNMAYER ET AL. Appeal from C. A. 9th Cir. dismissed for want of jurisdiction. Treating the papers whereon the appeal was
taken as a petition for writ of certiorari, certiorari denied. Reported below: 812 F. 2d 714.
No. 86-1885. SCARVACI v. MATESTIC, ASSISTANT DISTRICT ATTORNEY, ET AL. Appeal from C. A. 7th Cir. dismissed for want of jurisdiction. Treating the papers
whereon the appeal was taken as a petition for writ of
certiorari, certiorari denied.
No. 86-1891. HALLIWELL v. EU, SECRETARY OF STATE
OF CALIFORNIA, ET AL. Appeal from C. A. 9th Cir. dismissed for want of jurisdiction. Treating the papers
whereon the appeal was taken as a petition for writ of
certiorari, certiorari denied.
No. 86-1899. POLYAK v. STACK ET AL. Appeal from
C. A. 6th Cir. dismissed for, want of jurisdiction. Treating the papers whereon the appeal was taken as a petition for writ of certiorari, certiorari denied. Reported
below: 812 F. 2d 1408.
NAL

No. 86-2008. BRANSON v. COMMISSIONER OF INTERREVENUE. Appeal from C. A. 9th Cir. dismissed for

App. 40
want of jurisdiction. Treating the papers whereon the
appeal was taken as a
*

*

*

ORDERS
February 22, 1988
No. 87-840. CUMBERLAND FARMS, INC. v. UNITED
STATES. C. A. 1st Cir. Certiorari denied. Reported below:
826 F. 2d 1151.
No. 87-853. SIERRA PACIFIC POWER CO. v. PUBLIC
SERVICE COMMISSION OF NEVADA. Sup. Ct. Nev. Certiorari denied. Reported below: 103 Nev. 187, 734 P. 2d
1245.
No. 87-863. JENSEN v. SATRAN, WARDEN. C. A. 8th
Cir. Certiorari denied.
No. 87-865. GREGORY LUMBER CO., INC. v. UNITED
STATES. C. A. Fed. Cir. Certiorari denied. Reported below: 831 F. 2d 305.
No. 87-868. NELSON v. UNITED STATES. Ct. Mil. App.
Certiorari denied. Reported below: 25 M. J. 110.
No. 87-870. CONNECTICUT v. JARZBEK. Sup. Ct.
Conn. Certiorari denied. Reported below: 204 Conn.
683, 529 A. 2d 1245.
No. 87-877. JOVANOVIC v. UNITED STATES. C. A. 8th
Cir. Certiorari denied. Reported below: 824 F. 2d 677.
No. 87-879. ODEGARD v. UNITED STATES. Ct. Mil.
App. Certiorari denied. Reported below: 25 M. J. 140.

App. 41
No. 87-882. BARNES v. UNITED STATES. C. A. 11th
Cir. Certiorari denied. Reported below: 820 F. 2d 1229.
No. 87-884. BENSON v. ALLY ET AL. C. A. 5th Cir. Certiorari denied. Reported below: 828 F. 2d 771.
No. 87-885. KHAN v. JENKINS ET AL. C. A. 4th Cir.
Certiorari denied. Reported below: 814 F. 2d 655.
No. 87-891. FRIEDRICH v. OHIO. Ct. App. Ohio,
Holmes County. Certiorari denied.
No. 87-895. HEDLUND ET AL. v. MILLER ET AL. C. A.
9th Cir. Certiorari denied. Reported below: 813 F. 2d
1344.
No. 87-905. ANNABI v. UNITED STATES. C. A. 2d Cir.
Certiorari denied. Reported below: 824 F. 2d 1294.
No. 87-906. ROBERTS ET AL. v. UNITED STATES. C. A.
11th Cir. Certiorari denied. Reported below: 829 F. 2d
1130.

App. 42

17-2003-cv
===========================================================================================

United States Court of Appeals
for the

Second Circuit
-----------------------------------------------------------------------

CONNECTICUT FINE WINE AND SPIRITS, LLC,
DBA Total Wine & More,
Plaintiff-Appellant,
– v. –
COMMISSIONER MICHELLE H. SEAGULL,
DEPARTMENT OF CONSUMER PROTECTION,
JOHN SUCHY, DIRECTOR,
DIVISION OF LIQUOR CONTROL,
Defendants-Appellees,
WINE & SPIRITS WHOLESALERS OF
CONNECTICUT, INC., CONNECTICUT
BEER WHOLESALERS ASSOCIATION, INC.,
CONNECTICUT RESTAURANT ASSOCIATION,
CONNECTICUT PACKAGE STORES
ASSOCIATION, INC., BRESCOME BARTON, INC.,
Intervenors-Defendants-Appellees.
-----------------------------------------------------------------------

App. 43
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE
DISTRICT OF CONNECTICUT
===========================================================================================
BRIEF FOR PLAINTIFF-APPELLANT
===========================================================================================
JAMES T. SHEARIN
EDWARD B. LEFEBVRE
PULLMAN & COMLEY, LLC
850 Main Street, 8th Floor
P.O. Box 7006
Bridgeport, Connecticut
06601
(203) 330-2000

WILLIAM J. MURPHY
JOHN J. CONNOLLY
ADAM B. ABELSON
ZUCKERMAN SPAEDER LLP
100 East Pratt Street,
Suite 2440
Baltimore, Maryland
21202
(410) 332-0444

Attorneys for Plaintiff-Appellant
===========================================================================================
*

*

*

[8] Conn. Gen. Stat. § 30-68m(a)(3). These minimum
markups apply across the board, to all products,
whether a $10 bottle of whisky or a $200 bottle of
champagne.4 There is no cap, however, on how much
wholesalers can require retailers to mark up their

4

The statute provides one token gesture at competition: as
of May 2012, a retailer may sell “one beer item” or “one item of
alcoholic liquor” below its statutory “cost” – but even then, retailers may only discount below their artificial “minimum bottle cost”
by ten percent. Conn. Gen. Stat. § 30-68m(c); 2012 Conn. Legis.
Serv. P.A. 12-17 (H.B. 5021).

App. 44
products by manipulating the difference between their
posted case prices and posted minimum bottle prices.
The final challenged aspect of the Act is its ban on
discounts, whether for quantity or any other reason.
Section 30-68k requires wholesalers to sell every bottle, can and case of liquor to any retailer at the same
price, regardless whether the retailer buys 1 case or
1,000 cases. Similarly, § 30-63(b) prohibits wholesalers
and manufacturers from offering any “discount, rebate,
free goods, allowance or other inducement for the purpose of making sales or purchases,” as well as from
“discriminat[ing] . . . in price discounts.”5
C. The Purpose And Effect Of The Challenged Statutes
These provisions, on their face, eliminate any incentive for wholesalers to compete on price. If a wholesaler were to drop its price on a particular product,
its [9] competitors would know that immediately (from
having seen the posted price), and would have four
days to match the posted price. The wholesaler who
first dropped its price would then be required to “hold”
the lower price for an entire month – during which it
would have no competitive advantage, because its competitors would be charging the same price.
5

See also Conn. Gen. Stat. § 30-94(a) (prohibiting “free goods,
gratuities, gifts, prizes, coupons, premiums, combination items,
quantity prices, cash returns, loans, discounts, guarantees, special prices or other inducements in connection with the sale of
alcoholic beverages or liquors”).

App. 45
These incentives are not just theoretical. If a
wholesaler sells a (12-bottle) case of Acme pinot noir
for $240 and sets the bottle price at $25, virtually every
retailer in the state will sell Acme at $25 per bottle.
Retailers cannot seek a lower price from a competing
wholesaler, because the wholesale prices have been
coordinated through the post-and-hold regime. Retailers could sell Acme for more than $25, but the wholesaler has already established an above-market profit
margin for the retailer (in this example, the $25 minimum retail price less the $20 wholesale price per
bottle, yielding a profit margin of $5, or 25%). As a result, the retail market for Acme pinot noir becomes
fixed at $25 per bottle throughout the state. Retailers
cannot reduce their costs or affect minimum bottle
prices by purchasing in large quantities. And efficient
retailers like Total Wine have no advantage through
economies of scale. Competition plays no role in pricing; and Connecticut consumers pay grossly inflated
above-market prices for every bottle of wine or spirits
they purchase.
[10] In short, as set forth in Total Wine’s Complaint, there is simply no price competition among
Connecticut wholesalers, and no effective price competition among Connecticut retailers. “Competing wholesalers for the same brands routinely set the same
bottle and case prices down to the penny, month after
month, with each wholesaler exactly tracking its competitors’ on-post and off-post case prices.” JA 20
(Compl. ¶ 19).

App. 46
The tables attached to the Complaint (JA 24-31)
make this eminently clear. They set forth, as to
twenty-two illustrative name brand products, each
wholesaler’s posted case price offered to retailers
(“cost/bottle”) and its posted minimum bottle price to
consumers (“Min bottle”), from December 2015 to
July 2016. JA 24-25. For each of the products listed,
each wholesaler set exactly the same case and bottle
price every month. When one wholesaler increased its
minimum bottle retail price, the competing wholesaler(s) increased their own posted “bottle” prices the
same month, by the same amount, and then adhered
to that increased retail price.
The anticompetitive effect of this across-the-board
horizontal and vertical price fixing mandated by the
statute is illustrated vividly by a practice among
wholesalers known as “on-post” and “off-post” pricing.
JA 19-20 (Compl. ¶ 17). After several months holding
case prices steady (“on-post”), all wholesalers simultaneously reduce (“off-post”) their case prices – the prices
at which [11] wholesalers sell to retailers. But they
keep the minimum bottle prices as high, or nearly as
high, as they were before the simultaneous drop in
case prices. That means not only that the post-andhold statute requires horizontal fixing of the case and
bottle prices posted by the wholesalers, but also that
the wholesalers effectively control not only retailers’
prices, but also their profit margins.6

6

For example, all three Connecticut wholesalers who sold
Bombay Gin maintained the identical minimum bottle price of

App. 47
In addition to mandating horizontal price fixing,
the challenged statutes also mandate industry-wide
vertical price restraints by requiring that wholesalers
post not only the case prices at which they sell to retailers, but also the minimum “bottle” prices that create a floor for retail sales to consumers. See JA 19-20
(Compl. ¶ 17). Every aspect of the statutory scheme
is mandatory. This mandatory pricing regime creates
irresistible pressure on wholesalers to collude not only
with other wholesalers to keep case prices high, but
also with retailers [12] who want to keep retail prices
artificially high, whether because they are inefficient
or they desire unreasonably large profit margins. The
statutes also prohibit more efficient retailers like Total
Wine from taking advantage of economies of scale in
purchasing and from passing along any cost savings to
consumers.

$29.99 for a 1.75 liter bottle between December 2015 and July
2016. But the case prices varied over time, being offered by all
three wholesalers at $29.91 per bottle in most of those (on-post)
months but being reduced to an identical level of $26.08 per bottle
in February and May 2016. Retailers who purchased their supply
of Bombay Gin in those two off-post months were guaranteed a
profit margin of at least $3.91 per bottle. But consumers never
saw any benefit from the wholesalers’ uniform reduction in case
prices during the two off-post months because the posted minimum bottle price remained fixed at $29.99. The examples drawn
from the case and bottle prices for 1.75 liter bottles of Jameson’s
Whiskey are even more extreme, with the identical posted case
and bottle prices from four separate wholesalers guaranteeing to
retailers profit margins of between $9.08 and $14.08 on a $44.99
to $49.99 minimum bottle retail price during some of those
months. See JA 24 (Complaint, Table 1).

App. 48
A recent study of the regulatory price control regime in Connecticut, prepared on behalf of the Distilled Spirits Council of the United States (“DISCUS”),
concluded that this regime, which is unique to Connecticut among all fifty states, resulted in retail prices
for wine and spirits that are as much as 24 percent
higher than prices offered for identical products in the
surrounding states. Id. ¶ 18; see An Act Ensuring the
Regional Competitiveness of Connecticut’s Liquor
Prices, Conn. S.B. 00014, 2016 Sess., Public Hearing
Testimony of Distilled Spirits Council of the United
States7 and Jay Hibbard8 (Feb. 23, 2016).
D. Total Wine’s Claims
There are more than 100 retail alcoholic beverage
stores operating in approximately 20 states under the
“Total Wine & More” name. JA 17 (Compl. ¶ 7). Total
Wine opened its first Connecticut store, in Norwalk, in
December 2012, and since then has opened three more
stores, in Milford, Manchester, and [13] West Hartford.
Id. (Compl. ¶ 8). Total Wine & More stores are committed to offering the nation’s best selection of alcoholic
beverages, and to having the most competitive prices
on wine, spirits, and beer. Id. (Compl. ¶ 7). Since the
first Total Wine & More store opened in Delaware in
7

Available at https://www.cga.ct.gov/2016/GLdata/Tmy/2016SB00014-R000223-Distilled%20Spirits%20Council%20of %20the%20
United%20States.-TMY.PDF.
8
Available at https://www.cga.ct.gov/2016/GLdata/Tmy/2016SB00014-R000223-Jay%20Hibbard,%20%20V.P.%20Government%20
Relations-TMY.PDF.

App. 49
1991, the stores have received numerous awards and
recognitions not only for their broad selection of products and expertly trained wine associates, but also for
their low everyday prices. JA 18 (Compl. ¶ 10).
Total Wine has not, however, been able to provide
Connecticut consumers with the full benefit of lower
prices. Id. (Compl. ¶ 11). Instead, as discussed above,
the three challenged statutes authorize, indeed mandate, that wholesalers control retail prices. Some products are sold exclusively by a single wholesaler; others
are sold by multiple wholesalers (so-called “duals”). As
to both categories, however, “Connecticut manufacturers and wholesalers have used the challenged provisions of Connecticut law to fix and maintain prices at
levels substantially above what fair and ordinary market forces would dictate.” JA 19 (Compl. ¶ 16).
The Complaint alleges that the challenged statutes are preempted by the Sherman Antitrust Act because they mandate and/or authorize horizontal price
fixing (Count One) and industry-wide vertical price
fixing (Count Two). The Complaint principally seeks a
declaratory judgment that the challenged statutes and
regulations are void, and an injunction prohibiting
their continued [14] enforcement. JA 23 (Compl. ¶ 34).
The named defendants were Jonathan A. Harris, the
Commissioner of the Department of Consumer Protection,9 and John Suchy, the Director of the Division of
9

Mr. Harris has since been succeeded in office by Michelle
H. Seagull, who was appointed as Commissioner of the DCP on
May 1, 2017. See Fed. R. App. P. 43(c)(2).

App. 50
Liquor Control, who together are responsible for enforcing the challenged statutes and implementing regulations. JA 16-17 (Compl. ¶¶ 2-3).
Defendants filed a motion to dismiss under Federal Rule 12(b)(6). JA 32-33. Four industry associations
intervened: the Wine & Spirit Wholesalers of Connecticut (“WSWC”), the Connecticut Beer Wholesalers
Association (“CBWA”), the Connecticut Restaurant
Association (“CRA”), and the Connecticut Package
Stores Association (“CPSA”) (collectively, the “Intervenors”). The Intervenors filed a joint motion to dismiss.
JA 34-36. Another Intervenor, the state’s largest
wholesaler, Brescome Barton, Inc., was also granted
intervention, and filed its own motion to dismiss on
December 7, 2016. JA 37-39.
E. The District Court’s Ruling
After hearing oral argument (JA 40-132), the District Court granted the defendants’ and intervenors’
motions to dismiss. The District Court agreed that the
challenged statutes, at least in part, constitute “hybrid
restraints,” i.e., they are laws that “grant[ ] private actors a degree of regulatory control over competition.”
*

*

*

[20] with respect to the industrywide vertical price
fixing alleged in Count Two, the Supreme Court’s
controlling decision in 324 Liquor has been implicitly
overruled.

App. 51
For these reasons, the judgment should be reversed and the case remanded for further proceedings.
ARGUMENT
I.

Standard of Review

This Court reviews de novo a district court’s dismissal under Rule 12(b)(6). See, e.g., Apotex Inc. v.
Acorda Therapeutics, Inc., 823 F.3d 51, 59 (2d Cir.
2016). When reviewing a Rule 12(b)(6) dismissal, the
Court accepts the factual allegations of the complaint
as true, Hemi Grp., LLC v. City of New York, 559 U.S. 1,
5 (2010), and draws all reasonable inferences in plaintiff ’s favor, Fulton, 591 F.3d at 43.
A complaint survives a Rule 12(b)(6) motion when
it “contain[s] sufficient factual matter, accepted as true,
to ‘state a claim to relief that is plausible on its face.’ ”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)). The
plausibility standard does not impose an across-theboard, heightened fact pleading standard, Boykin v.
KeyCorp, 521 F.3d 202, 213 (2d Cir. 2008), or “require[ ]
a complaint to include specific evidence [or] factual allegations in addition to those required by Rule 8.”
Arista Records, LLC v. Doe 3, 604 F.3d 110, 119 (2d Cir.
2010). Rather, a claim “has facial plausibility [21] when
the plaintiff pleads factual content that allows the
court to draw the reasonable inference that the defendant is liable for the misconduct alleged.” Id. at 120.

App. 52
II.

The Challenged Statutes Are Part Of A Unified Regulatory Scheme And Should Be Analyzed As Such.

The Complaint alleges that three aspects of Connecticut’s Liquor Control Act are preempted by the
Sherman Act. They are codified in separate subsections
of the Act, but they are part of a unified regulatory
scheme set forth in Part V of the Liquor Control Act.
All wholesalers are required to post their monthly case
and minimum bottle prices, and then upon reviewing
their competitors’ posted prices (and adjusting their
own accordingly), to fix those prices for the entire next
month. The prices they are required to post and hold
are not only the case prices (at which they will sell to
retailers that month) but also the so-called “minimum
bottle” prices (which, with a fixed markup, will be the
mandated minimum retail price offered to Connecticut
consumers). All wholesalers must sell to all retailers at
the same posted case prices. All retailers must sell to
all Connecticut consumers at bottle prices that are not
less than the posted and fixed minimum prices that
prevail throughout the state. These interrelated provisions make Connecticut’s alcohol pricing statute easily
the most anticompetitive in the country.11
11

In the District Court, one of the wholesaler intervenors,
Brescome Barton, identified five jurisdictions with statutes it
argued were similar: Delaware, New York, Oklahoma, Vermont
and Michigan. ECF No. 80-1 at 12 n.2. One of them (Delaware)
put an end to mandatory “holds,” discount bans, and minimum
retail pricing, having abandoned the last of them in 1999 – in part
based on concerns they “require[d] the posting and holding of
prices in violation of the Sherman Anti-Trust Act.” 4 Del. Code

App. 53
[22] The Defendants conceded below that all the
challenged statutes boiled down to a single “basic prohibition – a single manufacturer must sell at the same
price to every wholesaler and a single wholesaler must
sell at the same price to every retailer” (ECF No. 38-1
at 5), and the Intervenors conceded that the challenged
statutes had a “common purpose” (ECF No. 66-1 at 8).
Moreover, the District Court’s analysis made clear
there is no coherent way to analyze Connecticut’s
“tripartite pricing mechanism,” JA 135, except as a
single pricing regime. It explained, for example, that
although “the post and hold provisions by themselves
contemplate no interaction between actors at different
tiers of Connecticut’s liquor market,” the minimum retail price provisions “explicitly tie together the prices
posted by wholesalers and those charged by retailers.”
JA 158. See also JA 159 [23] (explaining that the court’s
analysis of whether the post-and-hold provisions are
hybrid “informs [its] efforts to answer the question of

Regs. 29; 2 Del. Reg. Regs. 1538-41 (Mar. 1, 1999) (proposed rule)
(emphasis added); 2 Del. Reg. Regs. 2160, 2162 (May 1, 1999)
(adoption of rule and summary of comments). The minimum bottle pricing regime in New York was invalidated by 324 Liquor,
479 U.S. at 343. Moreover, the current New York statute not only
does not ban quantity discounts; it expressly authorizes them.
N.Y. Alco. Bev. Cont. Law § 101-b(2)(a) (McKinney). The Oklahoma regulations Brescome Barton cited involve only price posting; they neither grant wholesalers control over retail prices nor
forbid quantity discounts. Okla. Admin. Code 45:30-3-8. The Vermont regulations also do not grant wholesalers any control over
retail prices. Vt. Admin. Code § 14-1-8(12). As for Michigan, that
state’s law applies only to wholesale prices; wholesalers neither
set nor hold retail prices. Mich. Admin. Code R. 436.1726.

App. 54
whether the minimum retail price provisions are best
characterized as a unilateral or hybrid restraint”).
Nonetheless, the District Court determined that it
was precluded from considering whether the statutes
taken together “authoriz[e] or compel[ ] private parties
to engage in anticompetitive behavior.” 324 Liquor,
479 U.S. at 345 n.8. JA 144-47. Instead, Judge Hall
considered herself bound by her view of antitrust
principles and federalism concerns to analyze the
challenged statutes “individually.” JA 145. The District Court’s reasoning in this regard does not withstand scrutiny.
First, as a practical matter, these statutes are inextricably intertwined. The post-and-hold statute explicitly requires the posting of both case and minimum
bottle prices. The “bottle price” posting requirement
sets the minimum retail price, because it is that price
(plus a fixed markup for “shipping or delivery”), when
posted by the wholesalers, that sets the price floor for
retail consumers. And the quantity discount ban is
simply the legislature’s reiteration that the posted
case prices really are the minimum wholesale prices;
no discounts are permitted, whether for bulk purchases or for any other reason.12
12

The District Court’s reliance on Connecticut’s general severability statute, Conn. Gen. Stat. § 1-3 (see JA 146) is not persuasive for largely the same reasons: it does not apply where, as
here, challenged statutes are “mutually connected and dependent
on [each other].” Payne v. Fairfield Hills Hosp., 215 Conn. 675,
685 (1990); see also Burton v. City of Hartford, 127 Conn. 80, 91
(1956) (presumption of separability created by separability clause

App. 55
[24] Second, as discussed in section III, infra,
courts must consider the purpose and effect of statutes
challenged under the Sherman Act, and the purpose
and effect of these statutes is unitary: to authorize and
mandate horizontal price fixing, in order to keep retail
prices artificially high. JA 20 (Compl. ¶ 19). And their
economic effect – retail prices as much as 24% higher
than in surrounding states, JA 20 (Compl. ¶¶ 18-19) –
is also unitary; each aspect of the challenged statutes
reinforces and contributes to the anticompetitive effect
of the others.
Third, the Supreme Court has repeatedly done
precisely what the District Court considered itself precluded from doing here: analyzing closely related statutes together in deciding whether they are preempted
by federal law. The 324 Liquor Court, for example, invalidated substantively identical statutes because the
effect of the “complex of statutory provisions and regulations [was] to permit wholesalers to maintain retail
prices at artificially high levels.” 479 U.S. at 340 (emphasis added). Similarly, in Midcal, the wine distributor plaintiff challenged several interrelated statutes,
involving “fair trade contracts,” price posting, and
minimum wholesale prices. 445 U.S. at 99. The Supreme Court analyzed as a single “threshold question”
whether California’s “plan for wine pricing” violated
[25] the Sherman Act. Id. at 102. See also Gade v. Nat’l
Solid Wastes Mgmt. Ass’n, 505 U.S. 88, 98-99, 104-06
(1992) (analyzing as a unit over a dozen different
overcome when rent control provisions of ordinance were dependent on validity of eviction controls).

App. 56
statutory provisions, some related to “public safety”
and others to “occupational safety,” in deciding whether
they were preempted by the Occupational Safety and
Health Act of 1970).
Fourth, although the District Court cited “federalism principles” as “counsel[ing] in favor of addressing the statutes in turn,” it simply does not follow that
federalism is “best given effect” by addressing each
provision of state law separately. JA 145. A state statute is preempted by the Sherman Act only when it
“mandates or authorizes conduct that necessarily constitutes a violation of the antitrust laws in all cases,
or if it places irresistible pressure on a private party
to violate the antitrust laws in order to comply with
the statute.” Rice v. Norman Williams Co., 458 U.S. 654,
661 (1982). Because preemption is limited to those
cases in which there is truly such an “irreconcilable
conflict,” federalism concerns are addressed in the
preemption analysis itself. Id. at 659. The question
whether particular state statutes are sufficiently interrelated in their purpose and effect so that they must
be analyzed together is a separate question.
Fifth, the District Court reasoned that each statute must be analyzed in isolation because of the
“framework by which the court analyzes antitrust
preemption claims,” as it “makes little sense, for example, to conceive of the post-[26]and-hold provisions
as having vertical effect.” JA 146. To be sure, many
preemption cases involve only horizontal or vertical
price fixing. But there is nothing about the “framework” for analyzing Sherman Act preemption claims

App. 57
that requires that each interrelated provision of a challenged statute be analyzed in isolation. For example,
if a statute mandates or authorizes horizontal price
fixing, it is preempted, even if the same statute also
mandates or authorizes vertical price fixing. The latter
mandate, which viewed alone might dictate “rule of
reason” analysis, obviously does not purge the former
mandate of its per se illegality. See Toys “R” Us, Inc. v.
Federal Trade Comm’n, 221 F.3d 928, 930 (7th Cir.
2000) (holding that an anticompetitive arrangement
among a dominant supplier and multiple retailers was
subject to per se scrutiny, even though it had both horizontal and vertical elements, because the “essence of
the agreement network [the supplier] supervised was
horizontal”).
In short, the District Court erred in analyzing the
challenged statutes in isolation. The Complaint states
preemption claims based both on horizontal and vertical price fixing because these statutes are inextricably
intertwined, and because the anticompetitive pricing
regime they implement creates both horizontal and
vertical price restraints.
[27] III. The District Court Erred In Disregarding the Complaint’s Allegations Concerning the Purpose and Effect of the
Challenged Statutes.
As stated above, the Complaint makes concrete
factual allegations that the statutes’ purpose was to
mandate and authorize horizontal and vertical price

App. 58
fixing, and that their effect has been precisely that:
wholesalers set the same bottle and case prices down
to the penny, month after month, resulting in significantly higher retail prices for Connecticut consumers.
The District Court concluded it could ignore those
well-pleaded allegations because “whether or not private parties are actually colluding has no import in the
preemption analysis, which focuses [exclusively] on the
text and face of the statutes at issue.” JA 140. See also
JA 138 n.6 (“Arguments as to the harm inflicted on consumers by this scheme are more appropriately directed
to Connecticut’s executive and legislative branches of
government.”). But the Supreme Court has made clear
that courts must consider the purpose and effect of
state statutes challenged under the Sherman Act.
Purpose. The core preemption question, as described below (§ V, infra) and articulated in Rice, 458
U.S. at 661, is whether the state statute (1) “mandates,”
“authorizes,” or “contemplates” conduct “that necessarily constitutes a violation of the antitrust laws in
all cases,” and/or (2) “places irresistible pressure on a
private party to violate the antitrust laws in order to
comply with the statute.” The purpose for which a statute was enacted is inseparable from those questions.
[28] Total Wine’s Complaint includes concrete allegations that the Connecticut legislature not only
“contemplated” that wholesalers and retailers would
act horizontally and vertically to fix prices. Total
Wine alleges that the very purpose of the statutes
was to “impel wholesalers to combine, conspire and
agree, either tacitly or expressly, to fix and maintain

App. 59
wholesale and retail prices,” and to thereby permit
wholesalers to fix and maintain those retail prices “at
levels substantially above what market forces would
dictate.” JA 19-20 (Compl. ¶¶ 16, 19). By disregarding
and thus effectively discrediting those well-pled allegations, the District Court turned Twombly, 550 U.S.
at 544, on its head.
Effect. The Complaint alleges that the effect of the
statutes has been two-fold: First, “[c]ompeting wholesalers for the same brands routinely set the same bottle and case prices down to the penny, month after
month, with each wholesaler exactly tracking its
competitors’ on-post and off-post case prices.” JA 20
(Compl. ¶ 19). Second, “retail prices for wine and spirits in Connecticut . . . are as much as 24% higher than
prices offered for identical products in the surrounding
states.” JA 20 (Compl. ¶¶ 18-19).
While the District Court felt compelled to ignore
these critical allegations, the Supreme Court has made
clear that the practical effect of a statute, including
whether “private parties are actually colluding,” is
critical to determining whether a challenged statute in
fact “authoriz[es] or compel[s] private parties to engage in [29] anticompetitive behavior.” 324 Liquor, 479
U.S. at 345 n.8. The 324 Liquor Court held that the
New York statutes at issue were facially invalid in part
because the evidence revealed that the “effect” of the
statute was that wholesalers were in fact “set[ting] retail prices” and thereby “guarantee[ing] retailers large
markups, sometimes in excess of 30 percent.” Id. at
340. See also Gade, 505 U.S. at 107 (“[P]re-emption

App. 60
analysis cannot ignore the effect of the challenged
state action on the pre-empted field.”). Although the
fact that a state statute “might have an anticompetitive effect,” standing alone, does not state a preemption
claim, Rice, 458 U.S. at 659 (emphasis added), the actual anticompetitive effect of a statute is relevant to a
plaintiff ’s preemption claim that the statute authorizes or mandates anticompetitive conduct. See 324
Liquor, 479 U.S. at 340. In dismissing the Complaint
at the outset of the case, the District Court prevented
Total Wine from even pursuing discovery of those anticompetitive effects.
The stark, horizontal uniformity of the Connecticut wholesalers’ posted case prices to retailers and
their posted minimum bottle prices that retailers must
set as a floor for sales to consumers is further illustrated in the tables attached to the Complaint. JA 2431. This evidence of horizontal uniformity is not just a
plausible allegation (though that is all it needs to be
at this stage); the clear evidence of uniform pricing
across the entire statewide alcoholic beverage industry
[30] establishes that the mandatory effect of all of the
challenged statutes is horizontal (and vertical) price
fixing.13
In short, the District Court could not resolve Total
Wine’s preemption claims, whether at the pleading
stage or otherwise, without taking into account the
13

These facts also are relevant to whether the challenged
statutes are unilateral or hybrid restraints, which, among other
things, turns on the “degree of discretion” that is exercised by “private actors” in setting prices. Costco, 522 F.3d at 890.

App. 61
actual purpose, and the effects in the marketplace, of
the challenged statutes. The Complaint stated concrete, plausible allegations as to both the purpose and
effect of the statutes. The District Court erred in granting dispositive relief without having permitted Total
Wine to pursue discovery and develop a further record
on which the District Court (and this Court) will be
able to make the requisite findings to assess fairly and
completely Total Wine’s preemption claims. For these
reasons alone, this Court should reverse the judgment
below and remand for further proceedings.
IV. The Quantity Discount Ban, Like The Other
Challenged Aspects of the Act, Is A Hybrid
Restraint.
Broadly speaking, there are three categories of
anticompetitive restraints: (1) “purely private restraint[s],” Rice, 458 U.S. at 665 (Stevens, J., concurring), such as agreements to fix prices, Texaco Inc. v.
Dagher, 547 U.S. 1, 5 (2006), or to boycott a particular
competitor, United States v. General Motors Corp., 384
U.S. [31] 127, 140, 143-46 (1966); (2) purely “unilateral”
action by states or local governments “to the exclusion
of private control,” which is beyond the reach of the
Sherman Act, Fisher v. City of Berkeley, California, 475
U.S. 260 (1986); and (3) “[h]ybrid restraints,” Rice, 458
U.S. at 665 (Stevens, J., concurring), which are “state
laws authorizing or compelling private parties to engage in anticompetitive behavior.” 324 Liquor, 479 U.S.
at 345 n.8.

App. 62
As the Intervenor-Appellees conceded below, “[t]he
core feature” of a hybrid restraint is that it “requires
or permits” private parties to dictate prices, “which the
state merely “enforce[s].” ECF No. 66-1 at 14 (citing
Fisher, 475 U.S. at 267-69). On three occasions, the
Supreme Court has “held that hybrid price-fixing restraints are prohibited by the Sherman Act.” See
Rice, 458 U.S. at 666 (Stevens, J., concurring) (citing
Schwegmann Bros. v. Calvert Distillers Corp., 341 U.S.
384 (1951) and Midcal, 445 U.S. 97). See also 324 Liquor, 479 U.S. at 342-43 (decided after Rice).
The District Court properly held that two aspects
of Connecticut’s “tripartite” price control regime – the
post and hold rules, and the minimum bottle retail
price provisions – constitute hybrid restraints. This
conclusion, as the District Court explained, was mandated by 324 Liquor, which held that New York statutes that were “remarkably similar” to the statutes
challenged here were hybrid restraints. JA 150, 159.
After all, public officials in Connecticut play no role
[32] whatsoever in setting wholesale or retail prices
for alcoholic beverages. Instead, Connecticut law empowers liquor wholesalers not only to set the prices
at which they sell to retailers (through posted case
prices), but also to establish a minimum price floor
below which retailers are prohibited from selling to
their customers (through posted “bottle” prices).14 But
14

The District Court also properly observed that although in
a purely private antitrust case a plaintiff must prove “an actual
agreement to fix or control prices,” this Court “ma[de] clear . . .
that no actual agreement needs to be pleaded or shown for a

App. 63
as to the prohibition on quantity discounts, the District
Court concluded it was analogous to the City of Berkeley’s rent-control ordinance at issue in Fisher, which
granted ongoing authority to a local board to set pricing in the form of maximum rents, and which the
Supreme Court held to be a unilateral restraint. See
JA 168-69. The District Court erred because the ordinance in Fisher was fundamentally different from the
quantity discount ban at issue here. This Court should
follow the Fourth Circuit’s holding in TFWS, Inc. v.
Schaefer, 242 F.3d 198, 208 (4th Cir. 2001) (“TFWS I”),
that a substantively identical quantity discount ban
constituted a hybrid restraint.
The District Court acknowledged that the quantity discount prohibitions grant no authority whatsoever to government authorities to set prices. Instead,
“wholesalers may choose what price they will charge
all retailers.” JA 169 [33] (emphasis in original). But
having considered itself precluded from considering
the interrelated effects of the challenged statutory
provisions, and because wholesalers “are prohibited
from charging different prices” to different retailers,
the District Court concluded that the discount ban is a
“unilateral” government-imposed restraint beyond the
reach of the Sherman Act. JA 169 (quoting Freedom

plaintiff to succeed on a preemption claim.” JA 156-57 n.11 (citing
Freedom Holdings I, 357 F.3d at 223 n.17). See also 324 Liquor,
479 U.S. at 345 n.8 (holding that no “contract, combination . . . or
conspiracy” need be pleaded or proven when challenging a hybrid
restraint).

App. 64
Holdings IV, 624 F.3d at 50) (alteration omitted). This
conclusion was wrong, for two reasons.
First, the “Fisher doctrine” only applies where a
state or local government imposes restraints “unilaterally” and “to the exclusion of private control.” 475 U.S.
at 266.15 A statute is “unilateral” only if it allows “no
degree of discretion” to
*

*

*

15

Under the Fisher doctrine, a state or local government that
has engaged in “unilateral” conduct is held not to violate the Sherman Act – that is, such conduct is beyond the reach of the Sherman Act. There is a related immunity doctrine, known as “state
action” immunity or “Parker” immunity (for the case Parker v.
Brown, 317 U.S. 341 (1943)). Under that doctrine, even if a state
governmental actor has violated the Sherman Act, he or she is
“immune” from liability where (1) the challenged anticompetitive
restraint was “clearly articulated and affirmatively expressed as
state policy” and (2) the policy was “actively supervised by the
State itself.” Midcal, 445 U.S. at 105 (1980). In this case, the
Defendants and Intervenors did not assert Parker immunity as a
basis for dismissal – and for good reason, because the State of
Connecticut is not involved in setting, regulating or monitoring
the prices set by the manufacturers and wholesalers, as the “active supervision” element requires. See North Carolina State Bd.
of Dental Examiners v. F.T.C., 135 S. Ct. 1101, 1112 (2015) (“The
active supervision requirement demands, inter alia, ‘that state
officials have and exercise power to review particular anticompetitive acts of private parties and disapprove those that fail to accord with state policy.’ ”) (quoting Patrick v. Burget, 486 U.S. 94,
101 (1988)); Midcal, 445 U.S. at 105-106 (no Parker immunity
because the state did not “establish[ ] prices,” “review[ ] the reasonableness” of prices, or “monitor market
*

*

*

App. 65
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
)
)
) NO: 3:16cv1434(JCH)
) May 18, 2017
) 10:07 a.m.
)
)

Connecticut Fine Wine
and Spirits, LLC
Plaintiff.
vs.
Jonathan A. Harris, et al
Defendants.

141 Church Street
New Haven, Connecticut
HEARING
BEFORE:
THE HONORABLE JANET C. HALL, U.S.D.J.
APPEARANCES:
For the Plaintiff

:

James T. Shearin
Pullman & Comley
850 Main Street
Bridgeport, CT 06601
William J. Murphy
Zuckerman Spaeder LLP
100 East Pratt St.
Baltimore, MD 21202

For the Defendant

:

Gary M. Becker
Robert J. Deichert
Office of the
Attorney General
55 Elm Street
Hartford, CT 06141

App. 66
Intervenor Defendants:
Wine & Spirits
Wholesalers of CT, Inc.

Deborah A. Skakel
Craig Flanders
Blank Rome LLP
405 Lexington Avenue
New York, NY 10174
Robert M. Langer
Wiggin & Dana
20 Church Street
Hartford, CT 06103

Connecticut Beer
Wholesales Association, Inc.

David S. Hardy
Carmody Torrance
195 Church St. 18th floor
PO Box 1950
New Haven, CT 06510-1950

Connecticut Restaurant Assn

Meredith G. Diette
Siegel, O’Connor
14 Eugene O’Neill Dr.
New London, CT 06320

Connecticut Package Stores
Association, Inc.

Patrick A. Klingman
Klingman Law, LLC
280 Trumbull Street
Hartford, CT 06103

Brescome Barton, Inc.

Jeffrey J. Mirman
Hinckley, Allen &
Snyder LLP
20 Church Street
Hartford, CT 06103

Court Reporter

:

Terri Fidanza, RPR

Proceedings recorded by mechanical stenography, transcript produced by computer.
*

*

*

App. 67
[45] you must be in per se because the statute does not
mandate or authorize improper conduct in all cases.
That’s all.
I don’t mean to repeat myself, but I think it is important not to lose sight of that significant and critical
distinction as to is this per se or is this rule of reason.
Because if this is rule of reason, then Total Wine’s
Complaint as pled is out.
THE COURT: All right. I am going to ask
another question that doesn’t involve analyzing per se
versus rule of reason.
MS. SKAKEL:

Thank you, Your Honor.

THE COURT:

You don’t have to thank me.

In Battipaglia, you claim that the Court analyzed
New York’s post and hold statute as if its conduct at
issue were unilaterally mandated by state statute.
That’s your brief at 27. Do you agree?
MS. SKAKEL:

Yes, Your Honor.

THE COURT: I think you acknowledge, as
you would have to if you haven’t already, that Battipaglia preceded Fisher –
MS. SKAKEL:

Yes, Your Honor.

THE COURT: – temporally. So Fisher is
the first time – we’ve already gone over this – it’s postNorman Williams. It’s the first time the Supreme
Court created the analytical framework of horizontal
versus – excuse me, [46] hybrid versus unilateral.

App. 68
Move from there only if hybrid to per se or rule of reason. Okay.
MS. SKAKEL:

Yes, Your Honor.

THE COURT: So I don’t understand how
you can argue to the Court that the unilateral nature
of the post and hold requirement was confirmed –
that’s your word – by Battipaglia.
MS. SKAKEL: Well, Your Honor, keep in
mind that first of all we’re talking about post and hold
in Battipaglia and we’re not talking about post and
hold in Fisher. But in the analysis that Judge Friendly
undertook is effectively not inconsistent with the subsequent Fisher case. In other words, his analysis was
that post and hold you have independent wholesalers
setting their own prices. And so there is no – there is
no slippage there in terms of whether or not there is,
in fact, an agreement because the statute is not mandating that the wholesalers agree.
It is a function of the statute that they, first of all,
determine what their own price is going to be and then
post it.
THE COURT: I don’t know that any of that
addresses my question of how you can argue that Battipaglia supports and, in effect, found the statute at issue in Battipaglia to be unilateral.
MS. SKAKEL: It also followed, Your Honor,
the [47] predecessor case, Morgan, which was the affirmance of Serlin Wine. And that case, of course, as Your
Honor may recall did discuss a Connecticut statute

App. 69
and that case followed a unilateral approach, if you
will.
THE COURT: I am going to be really specific. Point me to the page and paragraph in Battipaglia
that would, in your opinion, best support your statement that Battipaglia analyzed New York’s post and
hold statute as if the conduct at issue were unilaterally
mandated by state statute.
MS. SKAKEL: Your Honor, in that regard,
shall I provide you with the page in which Judge
Friendly is discussing the Connecticut and federal
court cases?
THE COURT: I don’t know. I want you to
provide me with the page that answers my question.
MS. SKAKEL: Well, Your Honor, he certainly is – one of the other sort of pieces of the framework that he’s providing, of course, is his discussion of
Midcal. And I think he’s contrasting what was going on
with Midcal and the – and the analysis the court undertook there with the analysis that, as we have noted
in our brief is, if you will, a unilateral approach. And
the discussion – let’s see here. I mean, we cite page 170
in our brief, and then likewise it continues – again this
discussion of the prior cases continues on to page 173.
So without going back, Your Honor, and literally
[48] rereading, my sense is that, you know, again, his
notion of going through the prior Connecticut cases as
well as going through Midcal and comparing and contrasting, that is creating the appropriate analysis that

App. 70
should apply here, which is one where the post and
hold statute is viewed as a unilateral restraint.
THE COURT: Thank you very much. Who is
going to argue for the plaintiff ?
MR. MURPHY:
THE COURT:

I am, Your Honor.
It’s Attorney Murphy?

MR. MURPHY:
meet you.

Yes, Your Honor. Nice to

THE COURT: Would you make sure the mic
is in front of you, sir, so your voice is being picked up
by the system.
It seems to me, and you correct me if I’m wrong,
but your view is that I should look at the challenge
scheme provisions collectively. Am I correctly reading
your arguments?
MR. MURPHY: Yes, Your Honor, although
that’s I don’t believe essential, but that is how we think
the Court ought to proceed.
THE COURT: Okay. Page 1 of your brief, you
say the three aspects of the Liquor Control Act taken
together . . .
MR. MURPHY:

Yes.

THE COURT: So I guess I am going to proceed on the assumption that’s what you are asking me
to do.

App. 71
[49] MR. MURPHY:
ferred way to do it.

I think it is the pre-

THE COURT: Why? What do you mean by –
forget about preferred. What case or law, statute or otherwise would tell me that’s how I would analyze the
situation in front of me?
MR. MURPHY: The statutes work together
and the statutes refer to each other.
THE COURT: But I have a lot of liquor cases
here, including from New York, which have many of the
same features. And when they are talking about – I
don’t know, I’m going to have the wrong cases, but in
one case they’re talking about resale price maintenance. I guess 324. They don’t go and say, oh, by the
way, you have got to look at this to see are there four
other sections of the New York statute that could affect
how anticompetitive this resale price piece is.
MR. MURPHY: I think that was a function
of the plaintiff ’s challenge in that case, or the party
that was challenging the statute because in 324, it was
actually a defendant. But, for example, in the Total
Wine case in the Fourth Circuit, TFWS, which was a
Total Wine case, we challenged two aspects of the Maryland statute. And the Court agreed and considered
them together.
In Costco, which I was not involved in, the parties
[50] challenged nine different provisions and the appellate court felt, well, some of these provisions interrelate

App. 72
and some don’t. And so the court ended up looking at
them all individually.
Here, in Connecticut, the below cost prohibition,
what’s been referred to as a resale price maintenance
situation, is part and parcel of the post and hold. Because cost is defined as the lowest – the posted bottle
price that the wholesaler posts. Now, the posted bottle
price is defined by the post and hold statute. There’s
two different statutes. But what is being challenged –
what we’re challenging is the interaction of the two.
So we do challenge post and hold. We also challenge the resale price maintenance. We challenge the
quantity discount because, as Judge Michael found in
TFWS, it has the effect of enabling people to enforce –
enabling the State to enforce more readily the post and
hold provision.
THE COURT:
MR. MURPHY:
THE COURT:
MR. MURPHY:

Was that Blaine Michael?
Blaine Michael.
Michael?
Yes, Your Honor.

THE COURT: Well, I’m an old antitrust lawyer. I emphasize old, and I don’t do much antitrust law.
Haven’t done it for a really long time, but I still remember that we, I thought, always framed antitrust analysis into horizontal [51] and vertical restraints. Would
you agree with me?
MR. MURPHY: I agree that that is certainly
a construct that is often applied.

App. 73
THE COURT: So I’m struggling with how I
take post and hold, which seems to me to be a horizontal scheme.
MR. MURPHY:

Yes.

THE COURT: It relates to what the wholesalers or bottlers get to do or not do vis-a-vis the prices
they set with the pricing by a retailer, which to me
looks to be a vertical issue.
MR. MURPHY: It certainly has a vertical aspect. But, Your Honor, because of the way the statute
works, every wholesaler is posting a bottle price for
every retailer for every product and every retailer
must charge at least that posted bottle price in every
store in Connecticut. So there are horizontal aspects as
well as vertical aspects.
This is not a case like Leegin where an individual
leather producer wants to induce his retailers to provide better service and maintain higher prices and
avoid the discounters. That’s not what this case is.
THE COURT: Okay. I think I understand
you, but I don’t think it is going to help you. Let me try
to explain. I will tell you what my reading is and then
you tell me why I’m wrong.
In my view, Leegin announced a blanket rule vertical [52] resale price maintenance schemes, wholesaler maker of product compelling a price at the level
below will never be per se illegal under the antitrust
laws. It may violate the antitrust laws under a rule of
reason analysis if the benefits we identify in this little

App. 74
case, you know, small manufacturer, small share of the
market, trying to support the little mom and pops that
are the outlets of their product against the mega competition. That’s all pro competitive we think nowadays
in the light of the ‘80s, or whenever it was decided, as
opposed to the dark ages of Dr. Miles. Right?
But Leegin goes on to educate us don’t be so comforted by the fact that it isn’t a per se rule that all resale price maintenance is rule of reason. It is that. It is
going to be a standard blanket test rule of reason, but
not all defendants will win under the rule of reason
test for resale price maintenance. And you have just
suggested in this case that, well, look, here we have got
every player in the market, it’s not just the little guy
with the small share like in Leegin. We’ve got everybody up here at the top fixing a price and then driving
that price down to their retailers. Correct?
MR. MURPHY:

Yes, Your Honor.

THE COURT: Okay. So if we didn’t have
preemption, if you can preempt the statute, I might be
thinking you’ve got a good shot of winning this case
under rule of reason as [53] anti-competitive because
of the nature of the whole market being involved. The
warning signs that Leegin said let’s not lose sight of
this.
The problem for you – give me a minute to try to
frame it. The problem for you is Rice, I think, Norman
Williams and everything I have been attacking the
other counsel over, this two-step construct, let’s assume I find it is hybrid and then I move to rule it has

App. 75
to be under Norman Williams irreconcilably in conflict,
and there’s language swear about it has to be a per se
rule, you’re under a rule of reason rule for that analysis
that you want me to look at the whole market of how
this resale price maintenance works, and therefore,
you don’t preempt.
MR. MURPHY: Your Honor, I don’t think so.
And the reason I don’t think so is because 324 Liquor
versus Duffy anticipated your question. And in that decision, Justice Powell wrote the following, mandatory
industry-wide resale price fixing is virtually certain to
reduce inter-brand competition as well as intra-brand
competition because it prevents manufacturers and
wholesalers from allowing or requiring retail price
competition. The New York statute at issue in 324 Liquor specifically forbids retailers from reducing the
minimum prices set by wholesalers.
Now, when the Supreme Court decided Leegin, it
did not overrule 324 Liquor. It didn’t discuss 324 Liquor. And [54] the Supreme Court recognized along the
way in its historical analysis of Dr. Miles and all the
vertical restraints and how they gradually all became
rule of reason, it recognized, though, that there was
still this notion that industry-wide resale price maintenance is different. And that’s what Justice Powell
wrote in 324 Liquor. It hasn’t been overruled.
I don’t know how the Supreme Court will decide
it, but this is not a case involving the typical vertical
resale price maintenance where a manufacturer tells a
retailer here is what you’re going to charge. This is

App. 76
something entirely different, and it is system-wide
industry-wide. I think that the Supreme Court may
decide that, you know, this has got horizontal aspects
and that makes it different.
THE COURT: I would give you a good shot
at it, actually. I think – if I now understand your argument, it is not a bad argument.
MR. MURPHY:

Thank you, Your Honor.

THE COURT: But the fact of the matter is I
have precedence that binds me. And the precedence
says – Supreme Court, if it’s hybrid, it is preempted
only if it is per se. There’s all that strong language in
Norman. Really, really strong. And then the Supreme
Court says resale price maintenance is not per se. I
don’t see how I fit. I don’t disagree, Justice Powell did
a very fine analysis of how this [55] particular construct of statutes can create an anti-competitive effect,
but it’s an analysis. It’s not a per se rule anymore.
MR. MURPHY:
THE COURT:

It was when he wrote it.
It was, but it isn’t anymore.

MR. MURPHY: It hasn’t been overruled,
Your Honor. I mean, the Supreme Court doesn’t go out
of its way to overrule random court of appeals decision
that it finds throughout the country that it might be at
odds with the decision. The Supreme Court does not
overrule sub silentio a decision of the Court rendered
a few years before. 324 Liquor on this point, Your
Honor, was unanimous.

App. 77
THE COURT: But it relied on Dr. Miles in
that very paragraph you quoted to me. Tell me anywhere that says that when the Supreme Court announces an – overruling a case which is the doctrinal
case, it is the case which has been followed in hundreds
of cases, including Supreme Court cases, I don’t know
of any principle that says that unless the Supreme
Court names every case that relied on Dr. Miles, it isn’t
overruling those cases to the extent that they relied on
Dr. Miles. That’s can’t be, sir.
MR. MURPHY: Your Honor, I think that it
is. In 324, Justice Powell recognized the tension with
Dr. Miles, recognized the criticisms of Dr. Miles, recognized the ways in which the Court had narrowed the
per se rules with respect [56] to vertical restrictions,
and did all of that. And in Leegin itself, the Court recognized that what it was doing with respect to a private
cartel would lead perhaps to unfortunate consequences
if it was not a private cartel involving a small segment
of the market, but indeed the entire market.
THE COURT: But it didn’t say – what it
didn’t say, sir, is it didn’t say we’re going to overrule Dr.
Miles which said per se analysis for resale price
maintenance. It didn’t say we’re going to overrule that
for rule of reason with little industry participants, but
when they are everybody or all the big boys, that’s a
per se rule.
MR. MURPHY: It also didn’t, Your Honor,
distinguish between statutorily imposed restraints

App. 78
and private agreements because it wasn’t dealing with
the statutorily imposed restraint.
THE COURT:
MR. MURPHY:
uor is one.

No.
This case is one and 324 Liq-

THE COURT: When I’m at the second step
of my analytical framework, I’m looking at it under antitrust principles, per se rules, rule of reason. I understand I’m looking at it in the context of the state
statute because I’m in the box because it’s a preemption question. But I’m still analyzing it under universal, I’ll call them, antitrust principles. Right?
[57] MR. MURPHY: You’re right, Your Honor.
But we are also challenging this aspect of the statutory
scheme as a horizontal restraint.
THE COURT: I understand that. Maybe
we’ll get to that in a minute. You’ve got me all over my
questions, though, I’m trying to – I think that takes
care of that one. Let me get back to some of my earlier
ones.
I just want to be clear you’re making a facial challenge to the statute?
MR. MURPHY:

Yes.

THE COURT: That’s why you named, you
know, the Assistant A.G.’s clients, right?

App. 79
MR. MURPHY: We’re seeking injunctive relief to declare the statute unconstitutional as – on contravention of the Sherman Act.
THE COURT:
MR. MURPHY:
THE COURT:
MR. MURPHY:

On its face.
On its face.
Period, end of answer.
On its face.

THE COURT: So to the extent I might find
a few words here or there in the Complaint that try to
tip their hat at private participants and what they are
doing as a result of having this umbrella of the statute,
that can only be understood in the context of a facial
challenge, in other words, something on the face of the
statute.
[58] MR. MURPHY:
explain that?

Yes, Your Honor. Can I

THE COURT: I think, as long as you don’t
take back what you just said.
MR. MURPHY: I’m not going to take anything back. I’m going to explain why it’s there.
THE COURT:

Go ahead.

MR. MURPHY: Because in Midcal, for example, the Supreme Court analyzed what had been the
impact of the statutes being challenged on prices and
analyzed the price impact. In Battipaglia, Judge Friendly
stated that there was not the kind of evidence that he

App. 80
would have expected to see on the impact on prices if
the statute was as bad as the plaintiffs there was alleging.
This happens to be a case in which we can tell
pretty readily what the impact of a statutory scheme
is, and that’s what those charts attached to the Complaint do.
THE COURT:
alcohol, right?

I’m paying too much for my

MR. MURPHY:
your alcohol.

You are paying too much for

THE COURT: While we’re on this – I’m
sorry I interrupted you, but I’ll just keep interrupting
you.
You make some statement or arguments in your
brief, they are very well framed but I think irrelevant
to me, about the whole question of whether this is a
good choice for the [59] State of Connecticut, its consumers, even its business people. That’s not my decision, correct? I might think that your position is the
best position in the world in the sense of we don’t need
this scheme, but that isn’t what I’m deciding here. Do
you agree?
MR. MURPHY: You have to decide whether
it is consistent with the Sherman Act.
THE COURT:

I have to decide if it is pre-

empted.
MR. MURPHY:

Right.

App. 81
THE COURT: That’s fine. I interrupted you.
So if you can remember where you, you can please proceed.
MR. MURPHY: So in some of these cases,
the Court – and including the Supreme Court – has
clearly looked at how does the statute work in the real
world. And what our charts show is that in the real
world what happens is every wholesaler that sells
Tanqueray gin or a particular brand of vodka, whether
a dual wholesale arrangement, the case price is identical every month to the penny because the competing
wholesalers and the bottle price is identical every
month. And when the case prices change to give the
retailer a break and a discount from the usual price,
bottle price remains the same. The retailer can never
pass on the benefit to the consumer. That’s why it is –
THE COURT:
contemplates, is it?

That’s not what the statute

[60] MR. MURPHY: I’m not sure the statute
contemplates that. The statute has caused that.
THE COURT:
MR. MURPHY:
THE COURT:
MR. MURPHY:
THE COURT:
MR. MURPHY:
the Sherman Act.

Allows it.
Caused it. Allows it.
We won’t quibble.
It is anti-competitive.
Of course it is.
That is the major concern of

App. 82
THE COURT: Right, but we have lots of –
we have lots of state statutes to which the antitrust
laws don’t apply, right? I might like to see more competition in my electric bill.
MR. MURPHY: Absolutely. It is one thing to
have a regulated utility and it’s another thing to have
an unregulated liquor industry that has what the Supreme Court is Midcal called a gauzy veil of state enforcement over top of private market decisions. And
these are private market decisions.
THE COURT:

Well, but – well, that’s fine.

The intervenors in their reply write that, quote,
you, the plaintiff, do not assert irresistible pressure either in your Complaint or as a basis for your opposition, in other words, that second prong of the test. Are
they correct?
[61] MR. MURPHY: Your Honor, I would like
to say we’ll allege whatever we need to allege to have
our Complaint survive.
THE COURT:

Tell me what you have ar-

gued.
MR. MURPHY: What we have argued is that
this statute – I think we use the word facilitates and
impels.
THE COURT: Right. That isn’t in the test.
That’s why I think I’m having trouble with it.
MR. MURPHY: Maybe the word should have
been compels, but it compels a uniform pricing system.

App. 83
THE COURT: I really hate to – I’m very pedantic, you know. I have boxes. Is it in the mandate or
authorize box or is it in the irresistible pressure?
MR. MURPHY:
mandate and authorize.

I think what we argue is

THE COURT: I think that’s right. I just
wanted to be sure. You argue in your brief, quoting –
relying on the Costco decision, that a statute – this is
on the hybrid unilateral issue. That a statute is hybrid
so long as private parties have any power to set prices.
That is – and I will finish your thought – pubic officials
do not have exclusive authority to determine the nature and extent of the resulting consumer injury, end
quote.
I don’t see how that can be a correct framing because Fisher, which, of course, found the unilateral [62]
violation, the City – I’m going to frame this backwards,
but I will just state the facts. The City said you can’t
set the price at least to the extent it said it cannot be
higher than X dollars for that apartment. So I don’t
know how you can argue – I mean, so that in – I have
to finish my thought. I apologize.
In Berkeley, while the City set the maximum, the
parties were free to set prices below that. So the private parties had some power to set prices. Not all of it,
but some. And in that case, it was unilateral. Why is
our case – why is. My problem is how you framed your
argument, so I will go back to what you said.

App. 84
The statute is it hybrid so long as private parties
have any power to set price, that is where public officials do not have exclusive authority to determine the
nature and extent of the resulting injury.
MR. MURPHY: I guess, Your Honor, I would
start with the premise that if the result is anti-competitive,
then I would look at the role of the state and the role
of the private parties.
THE COURT: Maximum pricing is anticompetitive. We have cases if two private parties agree
on a maximum price, that would be anti-competitive
per se, right? I can’t remember the name of the case. I
learned it a long time ago. Had to be decided before the
‘70s. Maybe it is not good law [63] anymore. You don’t
remember maximum pricing?
MR. MURPHY:
MR. LANGER:
are no longer per se.

I’m not familiar with –
Yeah, horizontal maximums

THE COURT: See I told you I was an old
antitrust lawyer. It’s not per se, but it can be anticompetitive.
MR. LANGER:

Yes.

MR. MURPHY: What I’m really relying on.
In the language in Fisher itself says that not all restraints imposed upon private actors by government
units necessarily constitute unilateral action outside
the purview of Section 1. Certain restraints may be characterized as hybrid and that non-market mechanisms

App. 85
merely enforce private marketing decisions where private actors are thus granted a degree of private regulatory power. The regulatory scheme may be attacked
under Section 1. Indeed, this Court has twice found
such hybrid restraints to violate the Sherman Act.
That’s a passage from Fisher that discusses unilateral
versus hybrid. And at that time, of course, 324 had not
yet been decided so there were two examples, now
there are three.
THE COURT: But this is the part of where I
was sort of stifling the defendants and intervenors in
trying to talk to me about how there’s nothing compelled in the statute that make these people have to
agree on things. I’ll give them a chance to respond. But
what is it in the scheme here that – [64] what’s the
difference? In Berkeley – okay. It is not per se anymore,
but the City set the maximum and each landlord assuming there’s not further antitrust violations individually decides, okay, Unit B is going to be this much
below the max, but I’m charging the max on this one.
He didn’t have to get with anybody else. What’s in this
scheme that’s any different than that?
MR. MURPHY: The rent control ordinance
in Berkeley established what the base rentals would
be based on the historical data, and they said that’s it,
and you can’t raise your rents. And then they had some
incrementals, I think, over time, you can raise it a little
bit, raise a little bit. And you could come in, if you had
a compelling case to make, and argue before the Rent
Stabilization Board why you needed more rent for this

App. 86
unit in this building in this neighborhood. And the
Board then would adjudicate that.
Not too dissimilar in a situation where you would
have a private electric utility back in the old days that
would justify its rates and there’s a regulatory board
to decide whether those rates are reasonable or not.
That’s not what we have in Connecticut with respect
to liquor prices. What we have instead is that each
wholesaler sets a price for not only the case price that
he’s going to offer to his retailers, but also the bottle
price that will dictate what the retailer can sell to the
consumer. He does it every [65] month.
THE COURT:

Unilaterally.

MR. MURPHY: It could be unilateral. He
posts it. Everybody sees it. Everybody can match it if
they have a comparable product, and then they have to
hold it for 30 days.
THE COURT:

It is the match and hold?

MR. MURPHY: That’s certainly an aspect of
it. It is the match and the hold. And it is the hold that
creates the per se violation of the antitrust laws.
THE COURT:
tipaglia to deal with.

Except we have got Bat-

MR. MURPHY: I mean, that was Judge Winter’s dissent in Battipaglia. He said –
THE COURT: That’s great, and I have the
most respect for Judge Winter that I could possibly

App. 87
articulate. In fact, I could say I agree with him. But he
didn’t write the majority opinion.
MR. MURPHY:

I understand that, Your

Honor.
THE COURT: And Judge Friendly is no
slouch. You are going to tell me that I should overrule
Judge Friendly?
MR. MURPHY:
THE COURT:

No.
I don’t think so.

MR. MURPHY: I’m going to tell you that
Justice Powell overruled Judge Friendly –
[66] THE COURT:
MR. MURPHY:
THE COURT:

Where?

– in 324.
Well, no. How did he do that?

MR. MURPHY: Because he took a case that’s
just like the New York statute in every material respect and he said in 324, not only was it Justice Powell
– on the issue of whether this is a hybrid restraint that
has per se effects and that is a violation of the Sherman Act, setting aside the Twenty-First Amendment
defense, the Supreme Court was unanimous on that.
The only dissents were dissented on the Twenty-First
Amendment analysis, which is not at issue in this case.
So it was a unanimous Supreme Court opinion.
And unlike the situation with court of appeals decisions, it is not all that surprising that Justice Powell

App. 88
didn’t talk about Battipaglia. But it is interesting that
he did talk about the earlier decision of the Second Circuit involving the Connecticut statutes and said they
might survive this analysis. They might. But he’s dealing with New York and he didn’t cite Judge Friendly’s
opinion. And I don’t think they can be reconciled. Other
courts have agreed that they can’t be reconciled, including the Fourth Circuit in TFWS.
THE COURT: I have to, in order to be fair,
take you to task on your brief. You write at page 28 of
your brief that mandatory industry-wide resale price
fixing – that’s a [67] quote from 324 Liquors in your
brief. Then you stop the quote and say which . . . is precisely what is accomplished by a post and hold regime
– is a per se violation of the Sherman Act.
I don’t understand the jump from resale price fixing/
maintenance which is what was at issue in 324 to its
equation to a post and hold regime. Again, I’m in my
boxes, I’ve got vertical, I’ve got horizontal. I don’t know
– you are making this very – I don’t want to say clever.
If it held, it would be a great argument, but I don’t see
how you can make the illative leap from the 324 analysis of resale price maintenance and equate it to post
and hold. Maybe I – no, I didn’t misquote you. I’m at
the bottom, the last paragraph, third line.
MR. MURPHY: I’m with you, Your Honor.
It’s not an ellipsis. It is a dash.
THE COURT: But it is still a quote, then a
dash, which as noted above is precisely what’s accomplished by a post and hold regime. Is that the decision

App. 89
we had earlier about how you want to morph the post
and hold with the resale price maintenance?
MR. MURPHY: Really, that post and hold
has been recognized both in Costco and in TFWS to be
horizontal price fixing. That’s what those courts held.
THE COURT:

Not in 324.

[68] MR. MURPHY: No, not in 324. 324 did
not involve a post and hold statute. It involved –
THE COURT: It involves retail price maintenance statute, which I have here.
MR. MURPHY:
both here.

Yes, it did. But you have

THE COURT: Let’s get back to Battipaglia.
324 – well – Battipaglia was analyzed in the post and
hold statute, right?
MR. MURPHY:

It was.

THE COURT: So one would think that it
would be very helpful to me in analyzing this case,
would you agree?
MR. MURPHY:

I would generally agree.

THE COURT: The Second Circuit decision
written by Judge Friendly.
MR. MURPHY: I would generally agree with
that, sure. Can I say something? There’s a major distinction in Battipaglia between the New York statute
and the Connecticut statutes that Judge Friendly

App. 90
thought was important. If I can direct the Court’s attention to it, I would like to.
THE COURT:

Go ahead.

MR. MURPHY: On page 172 of the opinion,
Judge Friendly noted that the challenge sections of the
ABC law plainly are not resale price maintenance, a
scheme of the sort, and then to Midcal. In contrast to
Midcal, each wholesaler is completely free to file whatever price schedule [69] he desires, and his schedule
now has no controlling effect on retail prices since the
statute which prohibited retail prices at a price less
than that established in the schedule has been declared to be unconstitutional by the New York Court of
Appeals.
So Judge Friendly was looking at the interaction
of this statute with the other statute that had imposed
the prices on the retail level, noted that the New York
Court of Appeals had declared that statute to be unconstitutional and thought that that was significant to
his opinion because it really distinguished the case
from Midcal.
THE COURT: Right. But it also distinguishes
the post and hold from resale price maintenance sections.
MR. MURPHY:
both in this case.

I think that’s right. We have

THE COURT: Okay. And so I don’t understand how you equate the 324 holding that mandatory
industry-wide retail price maintenance is precisely

App. 91
what the post and hold regime accomplishes. I’m still
hung up on page 28 of your brief.
MR. MURPHY: I’m still trying to convince
you, Your Honor, that when you have resale price maintenance across an entire industry, applies to every wholesaler, applies to every retailer, applies to every product,
that that in effect creates horizontal price fixing.
THE COURT: But we had that in 324, didn’t
we? You [70] may not have had post and hold, but you
had every participant having to do resale price maintenance, right, or am I misremembering the case?
MR. MURPHY: No. Every participant was
required to jack up their prices by a fixed 12 percent at
the retail level, yes.
THE COURT: At the retail level, right. So
we had what you just said we didn’t have, we did have
in 324. Everybody in the industry was doing resale
price maintenance.
MR. MURPHY: Everybody was required to,
yes. Which is why I say it hasn’t necessarily been overruled by Leegin.
THE COURT:

It hasn’t what?

MR. MURPHY: It has not necessarily been
overruled by Leegin or Leegin.
THE COURT: I don’t understand. The section you quote at page 28, which I think is relying on
Dr. Miles at that point – wait a minute. It is not in that
paragraph.

App. 92
Okay. Let me – if I understand, you’re saying that
nothing in – Leegin speaks about an resale price agreement and said we’re going to reverse Dr. Miles’ resale
price agreements between that manufacturer and the
retail distributors is not per se illegal. Okay. And you
say that the flipping of the rule, the analytics of vertical agreements will now be rule of reason doesn’t touch
the rule that should be applied when there’s more than
one player or [71] one stream and it is everybody. Is
that really what you are arguing?
MR. MURPHY: I’m really arguing that if it’s
industry-wide, then that’s a different analysis.
THE COURT: That’s fine. You say Leegin is
one actor or one stream and here it is industry-wide
and, therefore, Leegin doesn’t give us an answer on the
test to apply when it is industry-wide.
MR. MURPHY:

That’s right.

THE COURT: First of all, you would agree
with me nothing in Leegin said that. They don’t say,
oh, by the way, this is only limited to the individual
stream.
MR. MURPHY: They talk about the prospects of, you know, wide resale price maintenance can
be anti-competitive and might be violative of the antitrust laws under rule of reason.
THE COURT:

Right.

MR. MURPHY: They talk a lot about broader
aspects of it, but they don’t ever say, and by the way, if

App. 93
you had a statute like the one in 324 Liquor, that would
still be subject to the per se rule. They don’t say that.
THE COURT: No, because what they have
said is resale price maintenance is subject to rule of
reason. And we’ll point out to courts like me who have
to have these questions answered by a trial level court
about is something
*

*

*

[89] advisement. I know this case –these motions have
been pending longer than I would have liked and I expect to get a decision out shortly. Hopefully, that won’t
be a promise I break. So – but they are all taken under
advisement, and the Court will stand will recess.
Thank you all very much.
(Whereupon, the above hearing adjourned at 12:20
p.m.)

COURT REPORTER’S TRANSCRIPT CERTIFICATE
I hereby certify that the within and foregoing is a true
and correct transcript taken from the proceedings in
the above-entitled matter.
/s/ Terri Fidanza
Terri Fidanza, RPR
Official Court Reporter

App. 94

17-2003-cv
United States Court of Appeals
for the Second Circuit
--------------------------◆◖
◗◆--------------------------

CONNECTICUT FINE WINE & SPIRITS, LLC,
d/b/a Total Wine & More
Plaintiff-Appellant,
– v. –
COMMISSIONER MICHELLE H. SEAGULL,
Department of Consumer Protection;
JOHN SUCHY, Director, Division of Liquor Control,
Defendants-Appellees,
WINE & SPIRITS WHOLESALERS OF
CONNECTICUT, INC.; CONNECTICUT
BEER WHOLESALERS ASSOCIATION, INC.;
CONNECTICUT RESTAURANT ASSOCIATION;
CONNECTICUT PACKAGE STORES
ASSOCIATION, INC.; BRESCOME BARTON, INC.,
Intervenors-Defendants-Appellees
-----------------------------------------------------------------------

ON APPEAL FROM THE
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF CONNECTICUT

App. 95
PLAINTIFF-APPELLANT CONNECTICUT
FINE WINE & SPIRITS, LLC’S PETITION FOR
REHEARING AND REHEARING EN BANC
WILLIAM J. MURPHY
JOHN J. CONNOLLY
ADAM B. ABELSON
ZUCKERMAN SPAEDER LLP
100 East Pratt Street,
Ste. 2440
Baltimore, Maryland 21202
(410) 332-0444

*

JAMES T. SHEARIN
EDWARD B. LEFEBVRE
PULLMAN & COMLEY LLC
850 Main Street,
P.O. Box 7006
Bridgeport, Connecticut
06601
(203) 330-2000
Attorneys for
Plaintiff-Appellant
*

*

[7] Total Wine appealed, and a panel of this Court
affirmed. The panel addressed the challenged statutes
individually, rather than as a unified scheme that was
intentionally anticompetitive. As to the minimum bottle retail pricing requirement, the panel held it was a
purely vertical restraint and 324 Liquor was effectively overruled by Leegin. Slip op. at 24-25. The
panel held that quantity discounts and other pricediscrimination prohibitions were “purely vertical” unilateral restraints controlled by Leegin. Id. at 26. And
as to post-and-hold, the Court followed the majority
opinion in Battipaglia, concluding that it had not been
undermined by 324 Liquor. Id. at 27-41.

App. 96
ARGUMENT
I.

The Panel Decision Entrenches a Circuit
Split on Post-and-Hold Laws and Quantity
Discount Bans.
A. This Is The Sole Circuit To Hold That Postand-Hold Statutes Like Connecticut’s Are Not
Preempted By The Sherman Act.

As explained above, the core of Connecticut’s anticompetitive regime is wholesalers’ unilateral control
over not only the prices they charge retailers, but also
the minimum prices retailers charge customers. The
Sherman Act preempts any statute that “mandates or
authorizes conduct that necessarily constitutes a violation of the antitrust laws in all cases, or if it places
irresistible pressure on a private party to violate the
antitrust laws in order to comply with the statute.”
Rice v. Norman Williams Co., 458 U.S. 654, 661 (1982).
The circuits are split two (Ninth and Fourth) to one
(Second) on whether statutes like these are preempted.
[8] As discussed below, the forerunner of this Circuit’s position, the 1984 divided Battipaglia decision,
was invalidated by the Supreme Court’s 1987 324 Liquor decision. See § III, infra. Even without reaching
that issue, the Court should grant en banc review because Battipaglia is an outlier; this Court should eliminate the circuit split and join the Ninth and Fourth
Circuits in holding that statutory regimes like Connecticut’s are subject to per se antitrust scrutiny and
are preempted by the Sherman Act.

App. 97
In Battipaglia, the majority acknowledged that
New York’s post-and-hold law “force[d] each wholesaler
to inform other wholesaler[s] of its prices and then to
adhere for a month to them . . . and that if this had
been done pursuant to an agreement, the agreement
would have constituted a violation of § 1.” 745 F.2d at
172. But because the majority believed, despite “some
doubt,” that “Section 1 requires an agreement” – a
premise the Supreme Court later rejected in 324 Liquor – the majority concluded the statute “does not
place ‘irresistible pressure on a private party to violate
the antitrust laws in order to comply’ with it.” Id. (quoting Rice, 458 U.S. at 661). In dissent, Judge Winter
correctly predicted that the Supreme Court would
eliminate the requirement of a private agreement in
the context of statutory hybrid restraints; he would
have held that the “requirement of adherence to announced prices,” including among competitors at the
same horizontal tier, was subject to per se scrutiny and
violated the Sherman Act [9] because it “brings about
the very anti-competitive arrangements the Sherman
Act was designed to avoid.” Id. at 179.
Since then, two other Circuits have held post-andhold statutes are preempted by the Sherman Act.
TFWS, Inc. v. Schaefer, 242 F.3d 198, 209 (4th Cir.
2001) (“The Maryland system . . . mandates activity
that is essentially a form of horizontal price fixing,
which has been called ‘the paradigm of an unreasonable restraint of trade.’ ”) (citation omitted); Costco Wholesale Corp. v. Maleng, 522 F.3d 874, 895-96 (9th Cir.
2008) (“[A]n agreement to adhere to posted prices is a

App. 98
per se violation without regard to reasonableness. . . .
Such agreements . . . are anticompetitive because
they are highly likely to facilitate horizontal collusion
among market participants. . . .”).
Both circuits expressly rejected the Battipaglia
majority’s analysis and instead followed Judge Winter’s dissent. See TFWS, 242 F.3d at 210 (“Battipaglia
has not been followed elsewhere, and a leading commentator on antitrust law has sided with the dissent.”)
(citing 1 Phillip E. Areeda & Herbert Hovenkamp, ANTITRUST LAW ¶ 217, at 308-09 (2d ed. 2000)); Costco, 522
F.3d at 894 (“[T]he dissent’s position is more consistent
with [California Retail Liquor Dealers Ass’n v. Midcal
Aluminum, Inc., 445 U.S. 97, 105-06 (1980)].”) (quoting
Areeda & Hovenkamp ¶ 217b).
[10] Connecticut’s statute is indistinguishable from
the post-and-hold provisions invalidated in TFWS and
Costco. See also, e.g., TFWS, Inc. v. Franchot, 572 F.3d
186, 188 (4th Cir. 2009) (earlier Fourth Circuit opinion,
concluding that the statutes were preempted); Miller
v. Hedlund, 813 F.2d 1344 (9th Cir. 1987) (holding that
Oregon’s post-and-hold statute was preempted).
Total Wine argued before the panel that Battipaglia
is no longer good law, and thus there should be no circuit split on whether post-and-hold statutes are preempted. The panel disagreed, concluding that Battipaglia
remains controlling and that only the full Court can
overrule it. This Court should grant en banc review to
eliminate the circuit split, and overrule Battipaglia.

App. 99
B. The Panel’s Decision Also Entrenches a Circuit Split On Quantity Discount Bans.
The panel opinion also entrenches a circuit split
with respect to quantity discount bans. The Fourth Circuit in TFWS squarely held that the Sherman Act
preempts Maryland’s quantity discount ban, which
also is indistinguishable from Connecticut’s. That volume discount ban “reinforce[d] the post-and-hold system by making it even more inflexible.” 242 F.3d at 209.
“Wholesalers post their prices as required, and discounts of any nature are prohibited by regulation.” Id.
Unlike with respect to post-and-hold, one other Circuit
has reached the same conclusion as the panel here:
that quantity discount bans are “unilateral” restraints.
See Costco, [11] 252 F.3d at 898. But the fact that the
panel opinion fortified the circuit split with respect to
quantity discount bans further supports en banc review.
II.

The Panel Improperly Disregarded Controlling Supreme Court Precedent.

In 324 Liquor, the Supreme Court struck down a
minimum-pricing and post-and-hold regime that was
materially indistinguishable from Connecticut’s. Contrary to the panel’s conclusion, 324 Liquor controls this
case in two ways.
First, 324 Liquor’s footnote 8 establishes that postand-hold statutes like Connecticut’s satisfy the “concerted action” requirement of Sherman Act § 1, which
by its terms prohibits “contract[s], combination[s] . . .

App. 100
or conspirac[ies], in restraint of trade.” See 479 U.S. at
345 n.8. That footnote in the Supreme Court’s opinion
is not ambiguous, is not dicta, and is not distinguishable. It must be followed by this Court unless that aspect of 324 Liquor has been overruled.
The panel found that 324 Liquor was not controlling because Connecticut’s regime did not “call for any
private action, let alone concerted action,” and that
“Fisher’s emphasis on the need for concerted action reinforces” that Battipaglia – decided before 324 Liquor
– was correct. Slip op. at 38 (citing Fisher v. City of
Berkeley, 475 U.S. 260 (1986)). But the Supreme Court
in 324 Liquor reached exactly the opposite conclusion
– and cited Fisher in support. In TFWS, Judge Luttig
was also skeptical that footnote 8 of 324 Liquor reflected a proper understanding of prior Supreme Court
precedent, including Fisher. 242 F.3d at [12] 214-15. The
Ninth Circuit shared Judge Luttig’s concern. Costco,
522 F.3d at 895 n.17. But both Judge Luttig and Costco
(as well as the majority in TFWS) properly concluded
that footnote 8 was controlling because, as Judge Luttig put it, “the Maryland regulations before us are not
materially different from the regulations in 324 Liquor.” 242 F.3d at 214.1

1

There also was no evidence of an “agreement” in Midcal,
yet there as well the Supreme Court held that the state laws were
hybrid restraints that were preempted. Midcal, 445 U.S. at 103.
See also Miller, 813 F.2d at 1349 (“While it is true that there is no
agreement or concerted activity among the wholesalers . . . the
state compels activity that would otherwise be a per se violation

App. 101
The Connecticut regulations at issue here are
even more closely analogous to the New York regulations at issue in 324 Liquor than the Maryland regulations in TFWS. Footnote 8 is as binding on this Court
as it was on the courts in TFWS and Costco. At best,
therefore, the panel decision splits with the other two
federal Courts of Appeals to have considered the issue
after 324 Liquor. At worst, it openly disregards binding Supreme Court precedent. Either way, this Court
should revisit the matter en banc.2
[13] Second, Total Wine argued that 324 Liquor
established that New York’s minimum-pricing and
post-and-hold requirements caused industry-wide resale price fixing, which the Supreme Court held to be a
per se Section 1 violation. See 479 U.S. at 342. Again,
this holding must be followed unless and until it has
been overruled. The panel acknowledged that the minimum pricing components of the New York and Connecticut statutes, like the post-and-hold components,
were “substantively identical,” Slip op. at 24, but held
that Leegin displaced the holding in 324 Liquor that
of the Sherman Act”); Costco, 522 F.3d at 893 (same); TFWS, 242
F.3d at 214 (Luttig, J., concurring).
2
The panel also observed that Freedom Holdings treated
Battipaglia as good law, a highly questionable reading of Freedom
Holdings that is entirely inconsistent with the Ninth Circuit’s
reading. Costco, 522 F.3d at 894 n.16 (“[I]t appears that Judge
Winter’s view in Battipaglia has prevailed in the Second Circuit.”)
(citing Freedom Holdings, 357 F.3d at 223-24 n.17). The panel
here, however, did not feel itself free to deviate from Battipaglia.
The panel also relied on Bell Atlantic Group v. Twombly, 550 U.S.
544 (2007), which neither discusses 324 Liquor nor comes close to
overruling it.

App. 102
New York’s minimum pricing law was a per se violation of § 1. According to the panel, 324 Liquor was a
straightforward case about a vertical restraint, and after Leegin vertical restraints could never be considered
per se violations of Section 1.
The panel overlooked Total Wine’s argument that
Leegin addressed purely private vertical resale price
maintenance arrangements. It did not address statutory regimes that caused industry-wide resale price
fixing. E.g., App’t Br. at 49-55; App’t Repl. Br. at 16-20.
The animating principle of Leegin is that economists
had come to recognize pro-competitive justifications for
a particular manufacturer’s use of resale price maintenance. 551 U.S. at 889. A leather goods manufacturer,
for instance, might set high retail prices to promote intrabrand competition among retailers based on exceptional service. Those set prices, in turn, could promote
interbrand competition with other manufacturers on
price.
[14] But the New York and Connecticut statutory
regimes effectively eliminate all price competition
among retailers. Wholesale prices must be shared and
competing wholesalers given an opportunity to amend
their prices, thereby eliminating price competition
among wholesalers. All wholesalers are then required
to set retail prices through the minimum bottle price
provisions. The result is not the promotion of interbrand competition, as in Leegin, but rather the opposite. See 324 Liquor, 479 U.S. at 342 (“Mandatory
industrywide resale price fixing is virtually certain to
reduce interbrand competition as well as intrabrand

App. 103
competition.”) (emphasis added). The result is an entire industry of stabilized (i.e., fixed) prices at both the
wholesale and retail levels. 324 Liquor struck down
that statutory regime in toto, and the Court in Leegin
did not begin to contemplate whether its holding that
private agreements for resale price maintenance should
be judged according to a rule of reason analysis affected 324 Liquor’s holding that a statutory regime
that caused industry-wide price fixing was illegal per
se.
Moreover, as Total Wine argued before the panel,
“[i]t is [the Supreme] Court’s prerogative alone to overrule one of its precedents.” State Oil Co. v. Khan, 522
U.S. 3, 20 (1997). Nowhere in Leegin did the Supreme
Court suggest it was overruling 324 Liquor; Leegin
does not even cite 324 Liquor. Where “a precedent of
[the Supreme] Court has direct application in a case,”
as 324 Liquor does here, “the Court of Appeals should
follow the case which directly controls” – even if the
[15] case “appears to rest on reasons rejected in some
line of decisions.” Agostini v. Felton, 521 U.S. 203, 237
(1997).
III. The En Banc Court Should Conclude That
Battipaglia Does Not Control.
The panel expressly concluded that Battipaglia remains controlling, and that “[a]ny application to revisit
Battipaglia is beyond this panel’s authority.” Slip op. at
41. Even if the panel’s decision had neither entrenched
circuit splits nor disregarded controlling Supreme

App. 104
Court precedent, this Court should grant en banc review to overrule the wrongly decided and widely criticized Battipaglia opinion.
First, as set forth above, Battipaglia was abrogated by 324 Liquor. A central premise of Battipaglia
was that a statute is preempted only where it “compel[s] an[] agreement.” 745 F. 2d at 170. The Battipaglia
majority also suggested that it saw the preemption
analysis as a balancing test, weighing New York’s interest in “deal[ing] with the subject of intoxicating liquor” against “the federal commerce power.” Id. at 169.
There is no way to reconcile either Battipaglia’s “agreement” requirement or its interest-balancing test with
324 Liquor.
Second, not only is Battipaglia an anachronistic
outlier; it has been heavily criticized. The overwhelming opinion of courts and commentators is that Battipaglia reached the wrong outcome based on faulty
reasoning. As the District Court noted, the Battipaglia
court “[c]uriously . . . relied on cases that applied rule
of reason scrutiny to arrangements by which competitors only shared price [16] information, rather than
grappling with the additional complexity stemming
from the state’s requirement that wholesalers hold
their posted prices.” 255 F. Supp. 3d at 371. As discussed above, “posting” alone is not necessarily fatal
from an antitrust perspective; many retailers and
wholesalers publish their prices. It is the posting and
holding that is pernicious, and that violates the Sherman Act.

App. 105
Judge Winter, in his Battipaglia dissent, explained
that New York’s mandatory “hold” moved the challenged
regime from rule of reason to per se analysis, because
agreements to adhere to announced prices have long
“been uniformly held illegal without regard to [their]
reasonableness.” 745 F.2d at 179 (Winter, J., dissenting) (citing Sugar Inst., Inc. v. United States, 297 U.S.
553, 601 (1936)). As noted above, the leading antitrust
treatise also criticized Battipaglia for the same reasons. “Given the great danger that agreements to post
and adhere will facilitate horizontal collusion, the dissent’s position [in Battipaglia] is more consistent with
Midcal.” Areeda & Hovenkamp ¶ 217b2.
Battipaglia is no longer good law. That the panel
felt constrained to follow it is further reason for the full
Court to grant en banc review.
CONCLUSION
For the foregoing reasons, this Court should grant
rehearing or rehearing en banc and thereafter reverse
the judgment of the district court.
[17] Dated: March 5, 2019

Respectfully submitted,
/s/ William J. Murphy
William J. Murphy
John J. Connolly
Adam B. Abelson
ZUCKERMAN SPAEDER LLP
100 East Pratt Street,
Suite 2440
Baltimore, Maryland 21202

App. 106
(410) 332-0444
(410) 659-0436 (fax)
wmurphy@zuckerman.com
jconnolly@zuckerman.com
aabelson@zuckerman.com
James T. Shearin
Edward B. Lefebvre
PULLMAN & COMLEY, LLC
850 Main Street,
P.O. Box 7006
Bridgeport, CT 06601
(203) 330-2000
(203) 576-8888 (fax)
jtshearin@pullcom.com
tlefebvre@pullcom.com
Attorneys for
Plaintiff-Appellant

